<html>
<title> - NEVADA LANDS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                              NEVADA LANDS

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 449

 A Bill To provide for an orderly disposal of certain Federal lands in 
      Clark County, Nevada, and to provide for the acquisition of 
         environmentally sensitive lands in the State of Nevada

                               __________

                     MARCH 13, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-5

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 40-299 CC                   WASHINGTON : 1997



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 13, 1997......................................     1

Text of H.R. 449.................................................    42

Statements of Members:
    Bryan, Hon. Richard, a U.S. Senator from Nevada..............     4
    Duncan, Hon. John, a U.S. Representative from Tennessee......     6
    Ensign, Hon. John, a U.S. Representative from Nevada.........     1
    Faleomavaega, Hon. Eni, a U.S. Delegate from American Samoa..     6
    Hansen, Hon. James V., a U.S. Representative from Utah.......     2
    Reid, Hon. Harry, a U.S. Senator from Nevada.................     3
    .............................................................

Statements of witnesses:
    Hobbs, Steve, Nevada State Director, The Nature Conservancy..    29
        Prepared statement.......................................    39
    Malone, Lance, Clark County (Nevada) Commissioner............    25
        Prepared statement.......................................    34
    Millenbach, Mat, Deputy Director, Bureau of Land Management..    12
        Prepared statement.......................................    32
    Wimmer, Richard, Deputy General Manager, Southern Nevada 
      Water Authority............................................    27
        Prepared statement.......................................    38
    .............................................................



   DISPOSAL OF CERTAIN FEDERAL LANDS IN CLARK COUNTY, NEVADA, AND TO 
 PROVIDE FOR THE ACQUISITION OF ENVIRONMENTALLY SENSITIVE LANDS IN THE 
                            STATE OF NEVADA

                                ----------                              


                        THURSDAY, MARCH 13, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. John Ensign 
presiding.

   STATEMENT OF HON. JOHN ENSIGN, A U.S. REPRESENTATIVE FROM 
                             NEVADA

    Mr. Ensign. The Subcommittee will come to order. I would 
like to welcome my colleagues from the State of Nevada and the 
rest of the people who are going to be testifying today.
    The Subcommittee on National Parks and Public Lands will 
commence this meeting. Chairman Hansen has a conflict this 
morning and has graciously asked me to chair the Subcommittee. 
Although he isn't here, I would like to extend my gratitude to 
him on behalf of the people of Nevada for his work in passing 
this bill. We came extremely close last year to sending this 
legislation to the President, and with his efforts I am very 
optimistic that we will ultimately be successful this year. He 
has submitted a statement and has asked that it be included as 
part of the record. And without objection, it will be so 
ordered.
    Likewise, I understand that Nevada Governor Bob Miller has 
submitted a statement for the record. And I appreciate his 
continued support on this legislation. And it should be 
included in the record without objection.
    This morning we are going to hear testimony on my 
legislation, H.R. 449, the Southern Nevada Public Land 
Management Act of 1997. I would like to welcome all who are 
going to testify today in taking time out of their busy 
schedule, especially those who have come from our home State. 
It is always a pleasure to see familiar faces from the State of 
Nevada on the east coast. And, Mat, also, it is good to see and 
have you here, now that you are a big television star.
    We have come a long way since this bill's conception. 
Senator Bryan and I have worked very closely with our 
respective local Public Lands Task Forces to craft legislation 
to address a variety of interests and concerns. After extensive 
negotiation, we have the support of local environmentalists, 
developers, recreationalists, the Clark County Commission, 
Governor Miller, local utility provides, and the 
Administration. I understand that there are some very minute 
issues that still need some tinkering, which I am sure Mr. 
Millenbach will explain, but I am extremely optimistic that we 
can reach an agreement that accommodates everyone involved.
    As some may know, or may not know, Las Vegas, Nevada, is 
the fastest growing metropolitan city in the country. In 
addition, 87 percent of the State of Nevada is federally owned. 
This dueling combination puts enormous pressure on local 
elected officials, BLM officials, and, most importantly, the 
current residents who are forced to shoulder the price tag of 
this development. H.R. 449 provides the essential mechanisms 
to:
    (1) allow this growth to occur in an orderly fashion by 
allowing local officials a seat at the table;
    (2) ensure this growth occurs without neglecting the 
environment by funneling revenue for acquisition of 
environmentally sensitive lands and to our existing Federal 
facilities, such as Lake Tahoe, Red Rock and Lake Mead;
    (3) provides money to offset a $1.7 billion water delivery 
system for Las Vegas;
    And finally, H.R. 449 helps future generations by providing 
some revenue for education.
    Although the BLM has made dramatic improvements to the way 
they handle the land exchange process, as evidenced by the way 
the recent and current exchanges appear to have been handled, 
however, the process doesn't work to give the fairest value of 
the land in a fast-growing area like Las Vegas. Therefore, an 
open, fair market auction process will best serve the American 
people by ensuring the most revenue to purchase and improve our 
favorite environmental areas.
    I believe very strongly that the Ensign/Bryan bill will be 
model legislation for other cities as they experience increased 
rates of growth. I am looking forward to hearing the comments 
of our two panels of witnesses and other members of the 
Subcommittee and look forward to working with my colleagues on 
its expeditious passage.
    [Statement of Hon. Jim Hansen follows:]

Statement of Hon. James V. Hansen, a U.S. Representative from Utah; and 
       Chairman, Subcommittee on National Parks and Public Lands

    H.R. 449, the legislation before the Subcommittee today, is 
a critical component in providing for the orderly disposal of 
federal lands in Clark County, Nevada. It builds on the 
existing Santini-Burton Act and enhances the best elements of 
that Act.
    As the witnesses and Mr. Ensign will testify, the Las Vegas 
valley has experienced unprecedented growth over the past 
decade. Driven by sustained employment growth, Clark County is 
among the fastest growing area in the United States. It is my 
understanding that in 1994 alone, local government issued 
25,570 residential building permits.
    As Clark County is surrounded be federal land, the 
phenomenal growth in the Las Vegas area has triggered the 
greatest demand for public land exchanges and other realty 
transactions in the BLM's history. In the last decade, the BLM 
has privatized approximately 17,380 acres of land in Clark 
County. The privatization of these federal lands has an 
enormous impact upon Clark County and the other units of local 
government.
    As someone who got his start in politics as a city 
councilman, I understand the needs and concerns of local 
government. It does not take much thought to understand the 
many impacts caused by privatization of federal lands in such 
large amounts. The primary impacts include the need for 
installation of new infrastructure, alteration of natural 
growth patterns, increased pressure on shrinking water 
supplies, and additional demands placed upon all public service 
providers.
    Additionally, the need for local governments to plan for 
growth is paramount. Without a mechanism to provide for the 
orderly disposal of federal lands in this valley, we will 
continue to face what amounts to a crisis. I applaud 
Congressman Ensign and the many people involved with the 
creation of this legislation. This bill will allow for the 
disposal of excess federal lands in a planned and careful 
manner.
    At this time, I would also like to acknowledge the efforts 
of the Bureau of Land Management. I am amazed at the many 
compliments given to the local BLM in Las Vegas for their fine 
work. I realize that Mr. Millenbach and the BLM in Washington 
have concerns with portions of this bill, but I appreciate 
their willingness to try and work them out in a spirit of 
comity. We came very close to enacting this legislation last 
Congress and I am hopeful we will succeed during the 105th 
Congress.
    I want to thank each of our distinguished witnesses today 
for their testimony and look forward to hearing from each of 
them.

    Mr. Ensign. Again, I would like to welcome my two 
colleagues from the State of Nevada, our senior senator, 
Senator Harry Reid, and our junior senator, Dick Bryan. Let us 
start. Go ahead and start with our senior senator, Senator 
Reid.

STATEMENT OF HON. HARRY REID, A U.S. SENATOR FROM THE STATE OF 
                             NEVADA

    Senator Reid. Thank you, Mr. Chairman, members of the 
committee, Las Vegas is part of Clark County. And as has been 
mentioned already, this county has seen phenomenal growth over 
the past couple of decades, especially the last ten years. And 
the last several years it has been the fastest growing county 
in the nation. This influx of new residents has put great 
pressure on the infrastructure of the entire region, and also 
the recreational assets we have.
    While no one thing can solve all the problems associated 
with this burgeoning growth, we can take steps to control it. 
This legislation makes important steps in this direction by 
providing for the orderly disposal of public lands in Southern 
Nevada, providing for the acquisition of environmentally 
sensitive lands in the State and providing a mechanism for 
local governments to offset the costs associated with 
development of these disposed Federal lands.
    The distribution of the proceeds from Federal land sales 
will give the Federal Government 85 percent for the acquisition 
of environmentally sensitive lands in Nevada. The State will 
use their five percent share for general educational programs, 
while the remaining ten percent will benefit the Las Vegas 
Valley water treatment programs, water infrastructure 
development, parks, and trails.
    As we approach the 21st Century, we have to be cognizant of 
our future generations and the legacy that we will leave. Any 
growth that occurs in a community must have coordinated 
planning. And this legislation, will greatly assist with this 
process, providing for more local government involvement. It 
allows State, county and city governments to manage costs 
associated with the development of these lands by adding to the 
State's education fund, as well as assisting with future 
development of Southern Nevada water systems and even the 
airport infrastructure. It will also assist us in determining 
and preserving the wild and scenic places for future 
generations, which are of value not just to the residents of 
Clark County but all taxpayers in all parts of our country.
    This bill has the bipartisan support of Nevada's 
Congressional delegation. It enjoys broad-based support in 
Clark County and support throughout the State of Nevada. This 
bill has a long history and can trace its genesis back to 
Congressman Jim Santini, the author of the Burton-Santini Act. 
We have spent now about $100 million of money from the Burton-
Santini fund to buy, principally in the Lake Tahoe area, 
environmentally sensitive land. Former Congressman Jim Bilbray 
continued this legislative process when he established the 
public land forum which was the basis for this legislation that 
we have. After he left, we stepped in and developed this 
legislation. So it is from these efforts and those of the four 
members of the Congressional delegation here that this bill 
before us has evolved in the fashion that it has.
    I encourage this committee to move this legislation forward 
as quickly as possible. We have recently received the assurance 
from Chairman Frank Murkowski in the Senate that he will work 
with us to move this legislation in the Senate in an 
expeditious manner. We have also been in contact with the 
Administration, and Senator Bryan and I feel we have their 
support and assurance that this legislation will move through 
the Senate quickly with their help. Thank you.
    Mr. Ensign. Senator Bryan.

STATEMENT OF HON. RICHARD BRYAN, A U.S. SENATOR FROM THE STATE 
                           OF NEVADA

    Senator Bryan. Thank you very much, Mr. Chairman. I look 
forward to working with you and Senator Reid and Congressman 
Gibbons and this committee in processing this legislation as we 
did in the previous Congress. Both you, Mr. Chairman, and my 
senior colleague, Senator Reid, have mentioned the growth. That 
is the operative word in Southern Nevada.
    For those on the panel who may not be familiar with 
Southern Nevada, our growth has truly been extraordinary. It 
has been the fastest growing community in the country. 20,000 
new homes alone were built in Las Vegas Valley in the last 
year. And in terms of school and educational needs, it is 
estimated that we will require a new elementary school every 30 
days, every 30 days for the next five years, to keep pace with 
the 12,000 new students who are entering the Clark County 
school system each year. That school system today is among the 
top ten largest school systems in America.
    Mr. Chairman and members of this committee, the legislation 
before us today, in my judgment, is a critical component of 
Southern Nevada's long-term plan to effectively manage the 
growth in the Las Vegas valley. Each time the BLM transfers 
land into private ownership, it has important consequences for 
the local government entity that must provide infrastructure 
and services to that land.
    The Bureau of Land Management controls in excess of 20,000 
acres of land throughout the Las Vegas Valley. Consequently, 
unlike most communities, land use planning decisions are not 
solely made at the local level. The BLM is an important player 
in the local use planning process. This legislation would 
strengthen the partnership between the BLM and local government 
and improve upon the current land use planning process.
    The BLM's primary method of disposing of land in the Las 
Vegas Valley is through land exchanges, and has been the 
subject of much attention over the past year. I happen to share 
the belief that land exchanges serve a valuable public purpose. 
The Federal Government disposes of land it no longer needs in 
exchange for land that is worthy of public ownership. The 
disagreements between the BLM and exchange proponents over 
appraisal methodology and value determinations are often the 
cause of protracted delays in the land exchange process. And 
that process itself has become extremely complex.
    Because of the dynamic nature of the real estate market in 
the Las Vegas Valley, any delay in the exchange process itself 
can cause the appraisals to become outdated before the 
transaction is effectively closed. So as you know, Mr. 
Chairman, the legislation that we have all crafted that is 
before us today would make two significant improvements over 
the current land exchange process. Number one, it would allow 
local land managers to take a more proactive role in Federal 
land disposal decisions. That is the partnership to which I 
alluded earlier in my testimony. And secondly, it would 
institute a competitive bidding process to ensure that the 
disposal of BLM land yields the highest return or true fair 
market value for the American taxpayers.
    There are currently over 25 land exchange proposals pending 
in the BLM's Las Vegas office. Some are clearly in the public 
interest. Others may not be. The vast majority of these 
proposals are intrastate exchanges, meaning the BLM has the 
authority to process them without Congressional action. This 
legislation would open the process to allow anyone who wishes 
to bid on BLM land to do so in a competitive sale, and it would 
eliminate the need to enter into the protracted appraisal 
negotiations over selected BLM lands that so often bogs down 
and becomes a cumbersome part of the exchange process.
    This legislation stands for the same proposition as the 
current land exchange process, namely that the sale of Federal 
lands in the Las Vegas Valley should be used as a means of 
protecting environmentally sensitive land throughout the State 
of Nevada and enhancing the use of public land for recreational 
purposes, as this legislation indicates, primarily in Southern 
Nevada. The legislation also contains important provisions for 
local government. Most importantly, as Senator Reid has pointed 
out, it builds upon the successful framework adopted in 1980 
with the Santini-Burton legislation, which has been very 
important in acquiring environmentally sensitive land in the 
Lake Tahoe Basin.
    I would like to also highlight another important provision 
of this bill which relates to affordable housing. This 
legislation would make affordable housing an authorized use 
under the Recreation and Public Purposes Act. There is a 
tremendous need in both Las Vegas and in Reno for land to 
develop affordable housing projects. I am aware that the BLM 
has some concerns with how this provision is currently drafted, 
but it is my hope that a compromise can be reached to meet this 
need, because affordable housing increasingly has become a 
critical concern for many of our fellow Nevadans.
    Mr. Chairman, I believe this legislation will make great 
strides toward improving public land management policy in 
Southern Nevada, and I look forward to working with you and 
your committee in any way that we can to facilitate its 
passage. This is important legislation. And I thank you again 
for giving us the opportunity to appear before you and testify 
today.
    Mr. Ensign. Before we open it up for questions, I would 
like to recognize the members and the ranking member in the 
order in which they appear and other members for opening 
statements. Mr. Faleomavaega.

   STATEMENT OF HON. ENI FALEOMAVAEGA, A U.S. DELEGATE FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly 
would like to commend you for taking the leadership in 
introducing H.R. 449 and in calling Mr. Gibbons.
    I certainly would like to also offer my personal welcome to 
our distinguished senators from the State of Nevada, Senator 
Reid and Senator Bryan, for their fine testimonies before the 
Subcommittee. I look forward to working with the members of the 
Nevada delegation and hopefully that we can resolve some of the 
concerns that have been raised by the Bureau of Land 
Management.
    I believe there was a markup taking place in the last 
Congress before the Subcommittee, but we never proceeded to go 
forward because of some of the concerns raised by the 
Administration. I do hope that we will be able to resolve 
these, what I consider differences that can be resolved. And I 
certainly look forward in working with you, Mr. Chairman, and 
the members of this Subcommittee to see if we can get this 
legislation going.
    Mr. Ensign. Well, thank you. And for those of you who don't 
know Mr. Faleomavaega, I experienced this morning he is quite 
the accomplished ukulele player. And some of you should 
experience that some day.
    Mr. Duncan.

   STATEMENT OF HON. JOHN DUNCAN, A U.S. REPRESENTATIVE FROM 
                           TENNESSEE

    Mr. Duncan. Well, Mr. Chairman, I would agree with you. I 
heard that also. I thought that was great this morning.
    Let me just say I am from Tennessee and I can tell you that 
there are many people in other parts of the country that think 
it is just crazy that the Federal Government owns 87 percent of 
this State. I read recently that the Federal Government now 
owns 30 percent of the land in this country and that State and 
local and quasi-governmental units own another 20 percent. And 
unfortunately, I guess, that has been growing by leaps and 
bounds in recent years. I will tell you when you decrease the 
supplies of private land, in this case, it increases the price. 
And if we keep on--if we had kept on heading in the direction 
that we were headed, I think home ownership would have gotten 
out of reach for a lot of young families in this country.
    So I hope that--frankly, I would like to see us sell a 
great deal of the land in your State and these other federally 
dominated States to private individuals so that lower income 
and middle income people can have a chance to buy a home. 
Senator Bryan mentioned that affordable housing is becoming a 
real problem in and around Las Vegas. I think we should sell 
some of these rural lands also, but I think and hope it 
sounds--this bill sounds like it is a step in the right 
direction. So thank you very much for coming here to show your 
support today. Thank you very much.
    Mr. Ensign. Mr. Gibbons, opening statement.
    Mr. Gibbons. Thank you, Mr. Chairman. Senators, welcome. 
Again, thank you for your participation here today. There has 
been expressed concern by some of our Federal agents, in 
particular the Secretary of Interior, the BLM, over the role of 
local governments in the decision about the disposal of some of 
these lands. And I would just like to ask whether you feel 
that----
    Mr. Ensign. Mr. Gibbons, before we get into questions we 
are just doing opening statements right now and then we will 
do----
    Mr. Gibbons. Sorry, Mr. Chairman.
    Mr. Ensign. That is OK.
    Mr. Gibbons. I was leaping ahead of you.
    Mr. Ensign. That is OK. Ms. Christian-Green, do you have an 
opening statement?
    Ms. Christian-Green. Good morning, Mr. Chairman. Thank you. 
I don't have an opening statement. I would just like to say 
welcome to Senator Reid and Senator Bryan.
    Mr. Ensign. At this time we will open it up for questions.
    Mr. Faleomavaega. I don't have any specific questions for 
the two senators. Your statement is well taken that we should 
proceed. I would like to hear the Administration's point of 
view as to some of the problems that they think they might have 
by moving this piece of legislation. I really would like to 
again thank our two senators for being here this afternoon.
    Senator Reid. Mr. Chairman, if I could just respond to 
Congressman Duncan briefly. We really appreciate your attitude 
and support for this legislation, but in Nevada we have over 
the last couple of decades conveyed a lot of land from the 
Federal Government into the private sector. The third largest 
city in Nevada, Henderson, is now a city of about 150,000 
people. And the reason is, because there were two large 
transfers of Federal land to the city of Henderson and then to 
the private sector. And they have been able to build many, many 
homes. It is part of a bedroom community. We recently 
transferred 200,000 acres to Boulder City?
    Senator Bryan. Yes.
    Senator Reid. Again, about 200,000 acres to the city of 
Boulder City, Nevada. Also Carlin, Mesquite, and in other 
places in Nevada, there have been transfers of public land into 
the private sector. And so it is not as if we haven't been 
doing anything. It is just that there is a lot more that needs 
to be done. And we appreciate your observations of some of the 
problems we have.
    Mr. Duncan. Well, Senator Reid, I hope you didn't take what 
I said as criticism, because----
    Senator Reid. I certainly did not.
    Mr. Duncan. I think that is great that you put those lands 
into the private sector and put them on the tax rolls and so 
forth. I think that is wonderful. What concerns me is there is 
still actually far too much of your land that is owned by the 
Federal Government for no good reason.
    Senator Reid. Most people in Nevada agree with you.
    Mr. Duncan. And also the same thing that you've just 
mentioned is not happening nearly enough in other parts of the 
country. So thank you very much.
    Mr. Ensign. Mr. Gibbons.
    Mr. Gibbons. Am I allowed to ask questions now, Mr. 
Chairman?
    Mr. Ensign. Yes. You are recognized to ask questions.
    Mr. Gibbons. I appreciate that and apologize for 
overstepping the bounds of decorum by asking a question in my 
opening statement.
    Senators, as I started out asking there has been some 
concern expressed earlier about the involved local communities, 
both county and city government, with regard to disposal of 
certain lands around this proposal. Can you help this committee 
understand better why that is necessary? You might want to 
touch a little bit on the Santini-Burton process which has a 
similar condition in it. Why in terms of infrastructure do 
these----
    Senator Reid. Senator Bryan.
    Senator Bryan. Yes, if I may, Congressman Gibbons, you are 
familiar with the Santini-Burton legislation. The Santini-
Burton legislation actually confers a veto power, as you know, 
on local government. As we were processing this legislation in 
the last Congress, a concern was raised by the Secretary of 
Interior and others, and so the language that we crafted 
represents a compromise that we thought was acceptable. And I 
invite your attention to page 6, which defines the selection 
process.
    And just very briefly without reading it, the Secretary and 
the unit of local government whose jurisdiction lands referred 
to in this section are located shall jointly select lands to be 
offered for sale or exchange under this section. It was our 
hope, Congressman, that that would be acceptable in this 
Congress. I know there have been some concerns raised. We do 
want to empower local governments to be a part of this 
decisionmaking process. This is an essential part of the long-
term planning.
    In your Congressional district in the outskirts of the 
metropolitan Las Vegas area, as you know, enormous growth has 
occurred. And every decision that is made affects those local 
entities, whether it is the city of Las Vegas or the County of 
Clark, the city of Henderson, or the city of North Las Vegas. 
Those have tremendous impacts, so we want that to be a process 
in which the local government entity is fully involved. And 
that is a very, very important part of this legislation. So I 
hope that we can assuage any concerns that they have.
    I might just add parenthetically, I am not aware--and the 
legislation, I think, we enacted in 1980. I am not aware that 
there has ever been a problem in terms of the local government 
interface with the Federal Government on the Santini-Burton 
legislation.
    Senator Reid. Congressman Gibbons, I would just add to that 
the problem is very evident, what has happened in the last ten 
to 15 years. The Federal Government picks a piece of land that 
they are going to put into the private sector and then local 
government has to construct the infrastructure to that 
property. And it has been very, very debilitating to especially 
Clark County, even buying the rights-of-way to put in 
utilities. And that is one of the key parts of this 
legislation.
    We hope that even legislation is not necessary. We have 
been meeting with the Secretary and we believe that he has the 
power to do that administratively, the Bureau has the power to 
do that administratively and it is not necessary in this 
legislation. But in case it is not done by the time we get this 
legislation passed, it is in this legislation, which will 
relieve a tremendous burden to the county and its subdivision, 
the water district, et cetera. So that if there is a piece of 
land put into the private sector, the local government is in 
effect cut some slack.
    Mr. Gibbons. Mr. Chairman, one final question, if I may, to 
the Senators. Thank you very much for that light response.
    What is the status currently on the Senate side of this 
bill? Is it up for a hearing? Is it going to be marked up? If 
you could just help us know the timeframe.
    Senator Reid. We wrote a letter to Chairman Murkowski and 
said we would very much like him to move this legislation as 
quickly as possible. And he graciously responded in spite of 
all the battles we are having with nuclear waste. He responded 
by saying that he believed in the legislation. In the letter he 
set forth reasons why. And he said that he would move upon this 
just as quickly as possible. So we feel very good about this.
    We also, in direct answer to your question that perhaps I 
didn't answer as clearly as I should--and you will hear the 
testimony from the Administration. We feel very good about the 
Administration. We believe that they also think this is 
necessary. As you know, there has been some land exchanges that 
have gone forward that have created bad publicity. And as a 
result of that, I think, the Secretary would also like to get 
this resolved. There are a few exchanges, as you know, in the 
pipeline now. And as Congressman Ensign indicated, it appears 
that all the I's are being dotted and the t's crossed on those. 
We need to move away from that and get a more deliberate 
process. I am confident the Secretary believes that also.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Ensign. Any other questions?
    Mr. Faleomavaega. I do have a couple of questions to the 
two senators. Is this land exchange a problem only in Las Vegas 
in Clark County or is the State of Nevada encountering this 
whole State----
    Senator Reid. Congressman, the problem is that the most 
valuable land is in the Las Vegas Valley, or Las Vegas 
metropolitan area. So that is basically where the problem lies. 
People want the land in Southern Nevada. They don't want it 
other places. So that has created the problem.
    Mr. Faleomavaega. What I am curious about is that--is there 
also a potential for further settlement in other areas of the 
State?
    Senator Reid. Well, not to the degree as in the south. We 
have, approximately, 90 percent of the people that live in the 
metropolitan Reno and Las Vegas areas. People don't realize 
that Nevada is the most urban State in the union, more urban 
than New Jersey and New York and Texas. And we are very proud 
of the industry we have in rural Nevada. We produce huge 
amounts of gold, 7 million ounces last year. But even though it 
creates a lot of jobs, in comparison to the heavily populated 
areas of Reno and Las Vegas, there is not much in the way of 
demand for land.
    Mr. Faleomavaega. My sense of curiosity is raised in the 
fact that Las Vegas was developed by--I think it was an 
entrepreneur, if I am correct in my history. It was out in the 
desert of nowhere.
    Senator Reid. Well, the entrepreneur was Brigham Young.
    Mr. Faleomavaega. Oh, I thought it was a Jewish fellow that 
started the first casino and developed it. For whatever it was 
historically in terms of Las Vegas in the earlier settlements, 
I stand corrected, Senator. But what I am curious about is that 
it seems to me that we take our western States in a piecemeal 
fashion. And I am trying to develop a sense of why we didn't 
just give half of what is federally owned by the Federal 
Government to the State of Nevada and let them take care of it?
    Senator Reid. Well, there are many who feel that way. There 
are others who feel that we need a real orderly process to do 
that. This legislation is a step in that direction. Just to put 
all the land up to bid would not help us, as Congressman Duncan 
thinks it would--it would not allow the land to go to the 
moderate and low income people. It would go the highest bidder 
and all the pretty places would be taken. This legislation is 
really a step, I think, in the direction which you would like 
to go and what I have heard from the committee. It would really 
allow us to move forward, and auction land. And we would be 
able to, with the proceeds from that money, buy environmentally 
sensitive land in the Lake Tahoe area and other areas around 
the State of Nevada which are vitally important to bring into 
the public sector even though they are small in acreage.
    Mr. Faleomavaega. So I suppose that 20 years from now we 
won't have to go through this exercise again. This is what I am 
concerned about.
    Senator Reid. Well, hopefully this legislation 20 years 
from now will still be in effect and we will be operating in 
the same manner.
    Senator Bryan. If I might just amplify the response, this 
is an extension of the concept of the Santini-Burton 
legislation that was enacted in 1980. And then, as now, 
although to a lesser extent, the metropolitan Las Vegas area 
was experiencing growth. And so there were parcels of BLM land 
that were in the immediately impacted growth area that it was 
decided that they ought to be disposed of. And those proceeds 
were used to acquire environmentally sensitive lands up at Lake 
Tahoe. So that is kind of the background of this in terms of 
how this concept evolved.
    Now, of course, in the intervening period of years, the 
growth has been even more substantial. To put this in some 
context, in 1980 the State of Nevada's total population was 
800,000. Today the entire State's population is slightly twice 
that, a million six. But of the 1,600,000, the metropolitan Las 
Vegas area has more than a million people. So, I mean, that is 
really, as Senator Reid pointed out, that is really where this 
growth and where the demand is occurring and where the impacts 
that were expressed earlier about being able to provide 
affordable housing. It is in the urban areas where the real 
growth is occurring and we are having the difficulty. So this 
will facilitate that process, we hope.
    Mr. Faleomavaega. I am pleading ignorance here. I am just 
curious. We conducted several atmospheric tests of our nuclear 
testing program in Nevada. How many surrounding towns in that 
area where we conducted these tests--is it further south of Las 
Vegas?
    Senator Reid. Congressman, we conducted about almost a 
thousand nuclear tests at the Nevada test site. Most of them 
were underground. There were some that were atmospheric. And 
there are some towns that are close by, but not real close. Las 
Vegas is about 90 to 100 miles away from the nearest test that 
took place. What would you say, Beatty is about 40 miles?
    Senator Bryan. Yes, but these atmospheric tests also 
impacted those communities along the eastern part of Nevada and 
in western Utah. These are the regions which benefitted from 
the down-winder legislation Congress enacted several years ago.
    Senator Reid. With the above-ground tests.
    Senator Bryan. With the above ground during the atmospheric 
testing days. And that would probably be out in our part of the 
country, probably, Mesquite, Moapa Valley, that area, that 
would be----
    Senator Reid. Lincoln County.
    Senator Bryan. Lincoln County.
    Senator Reid. St. George.
    Senator Bryan. Pioche, Panaca, Alamo.
    Mr. Faleomavaega. I am sorry. I didn't mean to detract from 
the line of questions, Mr. Chairman, but I am very, very 
concerned about this in terms of the 1000 tests that were 
conducted underground in Nevada. There have been no geological 
surveys in terms of the aquifers being affected, some water 
streams or any of that. You see, Senator, we conducted about 66 
nuclear tests in the Marshall Islands in the early '50's, and 
despite world protests we continued testing until we found out 
that there was strontium 90 found in the milk products coming 
out of Minnesota and Wisconsin. And that was the only reason 
why we stopped our atmospheric testing program, supposedly for 
scientific purposes. But, of course, being controlled by the 
military there is more coming out of this whole thing.
    And I am just very curious how safe are the residents of 
Nevada of this mess that we have created there as far as 
nuclear testing is concerned.
    Senator Reid. There has been extensive tests conducted. It 
surprises most people, but a very small percentage of the 1350 
square miles that is the test site--that is only about two 
percent of it is contaminated. Again, a very small area of the 
test site is contaminated. Once they stopped the above-ground 
nuclear tests, they were extremely careful. And out of the 
hundreds and hundreds of tests they had, I think they have only 
had venting at two or three tests over those years. And there 
have been ongoing and are presently studies as to what effect 
the underground tests have had with the aquifers. At this 
stage, they haven't determined any effect.
    Mr. Faleomavaega. So to your best opinion, Senator, the 
expansion and the land exchange with BLM in Clark County and 
Las Vegas, that the good residents of Nevada are going to be 
safe and healthy for the next 100 years as far as the nuclear 
dump site that----
    Senator Reid. As long as they keep nuclear waste out of 
Nevada, we will be in great shape.
    Mr. Faleomavaega. Thank you, Senator. Thank you, Mr. 
Chairman.
    Mr. Ensign. I would like to thank both my colleagues from 
the Senate, and especially Senator Reid for your last comment. 
I think that it was very well timed, and the rest of the House 
and the Senate should pay very close attention to that comment.
    I would like to call the next panel up, Mat Millenbach, 
Deputy Director for the Bureau of Land Management. We welcome 
your testimony, and proceed as you will.

 STATEMENT OF MAT MILLENBACH, DEPUTY DIRECTOR, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Millenbach. Good morning, Mr. Chairman. It was good 
seeing you on TV last night, too.
    Thank you for the opportunity to testify on H.R. 449, the 
Southern Nevada Public Land Management Act of 1997, regarding 
land disposal in the Las Vegas Valley. The Department of the 
Interior supports the concept behind this bill. We believe that 
through continuing discussions with the bill's authors in the 
House and the Senate, a final bill can be produced that would 
receive the Administration's full endorsement.
    I would like to summarize my statement and enter my entire 
statement for the record.
    H.R. 449 and its companion Senate bill, S.94, specifically 
effect several thousand acres of public land in the Las Vegas 
Valley, which are managed by the BLM. In recent years, the Las 
Vegas Valley has become the fastest growing metropolitan region 
in the country, and development has been influenced by the 
presence of public lands in this area and vice versa. This bill 
seeks to resolve the future of these public lands by requiring 
BLM to sell, exchange or transfer public lands in the Las Vegas 
Valley.
    The intent of H.R. 449 is to capture the best qualities of 
the BLM's land exchange goals, the Santini-Burton Act, and the 
partnerships that have been developed with local government. 
This bill provides for the disposal by sale or exchange of 
certain federally owned BLM-managed lands within a limited area 
of the Las Vegas Valley. Fifteen percent of the proceeds of 
these land disposals would be distributed to local entities. 
The balance of the funds would be used for the benefit of 
natural resource management within Nevada for Federal land 
acquisition, capital improvements, development of a multi-
species habitat conservation plan in Clark County, and the 
development of recreation in natural areas within Clark County.
    The bill also provides for the transfer of lands to Clark 
County at no cost within the airport management area for 
McCarran International Airport. Should those lands be sold or 
leased, the United States would be paid 85 percent of the fair 
market value received. The bill also includes a provision 
allowing local government entities to select other lands needed 
under the Recreation and Public Purposes Act prior to their 
conveyance. Local and regional governmental entities may also 
apply for rights-of-way for flood control and water treatment 
purposes, which can be granted in perpetuity and at no cost. 
Additionally, the Secretary is authorized to transfer the 
Recreation and Public Purposes Act reversionary clause from one 
parcel of land to another upon request by the owner of those 
lands.
    Nearly a year ago, the BLM acting Director, Mike Dombeck, 
testified in opposition to an earlier version of this bill. At 
that time Mr. Dombeck stated, ``while we support the goal of 
disposing of certain lands within Las Vegas to accommodate the 
city's growth, the Department strongly opposes this bill.'' He 
pointed out that the earlier bill would divert huge amounts of 
Federal resources and funds to local interests, offering a 
windfall to a few at the expense of many. Since that hearing a 
year ago, the Nevada delegation staffs have worked to resolve 
many of the problems we identified with this bill as originally 
introduced in the 104th Congress.
    Since H.R. 449 was introduced in the House, and its 
companion bill S.94, a number of technical issues have been 
discussed and resolved between BLM and Congressional staffs. 
Those details are unnecessary to pursue here, however there 
remain a few issues that are as yet unresolved that need to be 
remedied before the Administration can fully endorse the bill. 
Several of these areas are outlined in detail in my written 
statement, and they include the issue of consultation regarding 
selection of the lands to be sold rather than joint selection 
as specified in the bill, the conveyance of nearly 5000 acres 
near the airport at no cost to Clark County, the expansion of 
the Recreation and Public Purposes Act to allow for affordable 
housing anywhere within Nevada, the waiver of environmental 
laws for the conveyance of the youth activity facilities, and 
the need to discuss the location of the Red Rock National 
Conservation Area boundary modifications. The bill does not 
specify those areas.
    Mr. Chairman, we all recognize that a population explosion 
is occurring in many western communities. Las Vegas has seen an 
increased migration of people from Southern California and 
large metropolitan areas in the East. Public lands can be part 
of the solution and an effective land disposal program can 
assist in orderly growth.
    The BLM agrees that we need to move to dispose of much of 
the urban lands in the Las Vegas area when appropriate. These 
public lands should be disposed of in harmony with the needs of 
the local jurisdiction. We also believe that all land disposal 
must benefit both the American people and the local community 
as well. This legislation provides a good framework to allow 
for a fair approach to dealing with the situation in Las Vegas 
area. The bill deals with disposal of public land using a 
nearly identical boundary as developed in the BLM draft 
resource management plan. With some additional fine tuning, 
this bill will assist the BLM, local governments and the 
citizens of Nevada and the United States. We would be happy to 
work with the Nevada delegation to provide such a solution.
    Mr. Chairman, I appreciate the opportunity to appear before 
the Subcommittee today and discuss this bill, and I would be 
glad to answer any questions you might have.
    [Statement of Mat Millenbach may be found at end of 
hearing.]
    Mr. Ensign. Thank you, Mat. I have a few questions for you 
before I open it up to other members. First I want to address 
the youth activities, the little league--the 38.5 acres that 
you have raised questions about, Sections 202 and 203 of FLPMA. 
First of all, this Administration has supported waivers where 
it suits their purposes. And in fact, the President last year 
signed in the omnibus parks bill several waivers, all of which 
were more serious than this and involved hundreds of thousands 
of acres. The transfer of lands for youth activity, the Little 
League Baseball, involves only 38.5 acres and has already been 
identified for disposal under the BLM's own RMP and are subject 
to the Recreation and Public Purposes Act.
    I guess the question--does the Administration really object 
to 38.5 acres going to Little League?
    Mr. Millenbach. No, sir. It is a standard objection of the 
Administration to exempt the lands from the provisions of, say, 
the Endangered Species Act and so forth----
    Mr. Ensign. What does the BLM think?
    Mr. Millenbach. We support the transfer of the lands. We 
would like to be able to do the required clearances and so 
forth before that is done.
    Mr. Ensign. I also want to address the question of joint 
selection. First of all, we originally had veto power by the 
local government. And we have compromised to joint selection. 
And we know that BLM's position has been basically that the 
county has zoning ordinances. And just as the county has 
sometimes trouble saying no to zoning changes, the BLM has also 
had trouble saying no to developers. And don't you think that 
we need to be jointly working together here with the BLM and 
the local government to work out the problems here, especially 
dealing with some of these areas around the airport? It seems 
that just the Federal Government doing it by itself is not 
working. That is one of the reasons for the bill. It is one of 
the fundamental reasons for the bill. It is not working the way 
it is supposed to work, and that is the reason that we selected 
this joint selection.
    Mr. Millenbach. We believe that a consultation requirement 
is entirely appropriate. My understanding is of this, and I 
think you can probably ask the people from Las Vegas who are 
going to testify in the next panel about this, but my 
understanding is that our relationship between the local 
governments in the Las Vegas Valley and our people in the Las 
Vegas district office is actually very good. The difficulty 
with the joint selection provision is that under our normal 
land sale and other land disposal authorities under Federal 
Land Policy and Management Act, what is envisioned there is a 
consultation requirement. And if this bill were modified to 
require that, we would be very comfortable with that.
    Mr. Ensign. OK. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Millenbach, 
if I am correct, in your statement you are saying that the 
Burton-Santini version is your baseline. Do you--is the BLM 
still fully supportive of the Burton-Santini version?
    Mr. Millenbach. The Burton-Santini? Yes, sir. The Burton-
Santini Act has worked out very well for us. We have been able 
to sell lands in the Las Vegas area and buy environmentally 
sensitive lands in the Lake Tahoe area using the 85/15 income 
distribution. I think everybody has been very satisfied with 
that and feel like it has worked out both in the Federal aspect 
and the local aspect.
    Mr. Faleomavaega. And it is your position that the Burton-
Santini version can still be workable in working out the 
differences that you are----
    Mr. Millenbach. Yes, sir.
    Mr. Faleomavaega. [continuing]--the problem that you are 
having now with the officials of Nevada? Is this your position? 
My point here is that is there a different standard now that we 
are applying in doing the land exchange or are you using the 
Burton-Santini version as the basis of doing the land exchange?
    Mr. Millenbach. We are using the Burton-Santini as the 
basis for the 85/15 split. I know there is a difference between 
the joint selection requirement of Burton-Santini and the 
consultation requirement of the Federal Land Policy and 
Management Act, which is our general land sale exchange.
    Mr. Faleomavaega. So the proposed bill does not attempt to 
change any of the basic principles underlined in the Burton-
Santini version?
    Mr. Millenbach. It doesn't attempt to change the way that 
the money is raised. It is raised through the sale of the 
Federal lands through competitive sale. Those are both 
consistent. The money is put into a fund for specific purposes 
and then we are allowed to spend that money out of that fund 
for those purposes. This does the same and we concur with that.
    Mr. Faleomavaega. So you are saying that the BLM is more 
than happy to work together with the Nevada delegation using 
the Burton-Santini version as the basis and then see what 
other----
    Mr. Millenbach. Yes, sir.
    Mr. Faleomavaega. [continuing]--sense of flexibility can be 
fleshed out on the other provisions of the proposed bill?
    Mr. Millenbach. Yes, sir, absolutely.
    Mr. Faleomavaega. I noticed that you have got about five 
areas of concern in your statement.
    Mr. Millenbach. Yes, sir.
    Mr. Faleomavaega. Can you point with any sense of priority 
or do you consider every one of the five points or concerns of 
equal weight? Are there some areas that perhaps it can be 
worked out quickly, or is it going to take us another 200 years 
to work these differences out?
    Mr. Millenbach. Well, I hope not. The map of the Red Rock 
National Conservation Area boundary, I think, is just a matter 
of us sitting down and agreeing on the map. I saw your staff 
was showing you a copy. And we are pretty comfortable with 
that. We are much less comfortable with the use of the 
Recreation and Public Purposes Act for affordable housing. We 
think that is going to give us very substantial problems in the 
future in terms of administering those lands if the uses are 
changed after title is transferred. And we end up in a position 
where we might have to revert title. Then what do we do with 
these houses that are on the lands?
    Mr. Faleomavaega. What would be your best estimate in terms 
of a timeframe that perhaps we could get together and kind of 
iron these things out by way of moving this legislation 
forward?
    Mr. Millenbach. We could start any time.
    Mr. Faleomavaega. Fantastic. No, but my question is what 
kind of a timeframe are we looking at, maybe another five 
months or less or more or another two years till we--can this--
in other words, the five areas that you have expressed concern, 
can it be workable, can it be solvable? Are there some areas 
here that it is totally impossible, or is it--each of these 
five areas of concern, can they be worked out?
    Mr. Millenbach. I believe they can, yes, sir.
    Mr Faleomavaega. All right, thank you, Mr. Chairman. Thank 
you, Mr. Millenbach.
    Mr. Ensign. Thank you. Just real quickly, how does the 
joint selection in this bill differ from the joint selection 
that is mentioned in Burton-Santini?
    Mr. Millenbach. They are the same provision.
    Mr. Ensign. They are the same provision, and because it was 
fine before, why isn't it fine now?
    Mr. Millenbach. It is inconsistent with the normal way we 
sell lands and exchange lands. There is a consultation 
requirement in the Federal Land Policy and Management Act that 
requires us to coordinate our plans with local government.
    Mr. Ensign. Right, but we have recognized that the normal 
way we do things is not working, and that is one of the reasons 
for this bill. And that is one of the reasons for joint 
selection under Burton-Santini and one of the reasons for joint 
selection under this current legislation. So it just puzzles me 
why the Administration would have objections--it worked under 
Burton-Santini, wouldn't you agree?
    Mr. Millenbach. Yes, sir.
    Mr. Ensign. OK, why wouldn't it work under this bill?
    Mr. Millenbach. Well, it is a matter of consistency with 
the normal way we do business. If we had consultation but not 
joint selection, what that would require us to do is to work 
with the local governments just the same as we do now to try to 
come to some agreement on what that might be, but in the case 
of a substantial disagreement or where we needed a tie breaker, 
we still believe that it is the Federal Government's 
responsibility to make decisions about Federal lands.
    Mr. Ensign. Even though it worked under Burton-Santini, 
with joint selection?
    Mr. Millenbach. Yes, sir.
    Mr. Ensign. You don't see any inconsistency in that?
    Mr. Millenbach. I understand there is an inconsistency. I 
just think that we believe that it would be more in keeping 
with our Federal land disposal programs nationwide.
    Mr. Ensign. In other words--let me change the way I asked 
the question. If it is a certain procedure, consistent with a 
certain procedure, but unless you can tell me why it didn't 
work under Burton-Santini, then why shouldn't we do it the same 
way under Burton-Santini, it doesn't seem to justify. Just 
because that is the way it is normally done, if it works, 
shouldn't we be about common sense government?
    Mr. Millenbach. Yes, sir.
    Mr. Ensign. This seems like common sense.
    Mr. Millenbach. It has--well, let me try to----
    Mr. Ensign. Let me ask you something first before you go--
just to get your mind set. Have you ever lived in an area like 
what we are talking about? Have you ever dealt with local 
government, lived in an area that is growing like Las Vegas 
that has so much Federal land, that has these kinds of 
problems, so you could understand what local governments are 
telling you? I am not a local government person. I have never 
been involved in local government, but I know what my local 
government people are telling me and why they need this joint 
selection, why they think it is so important to have this joint 
selection and why Burton-Santini included it in their bill.
    Mr. Millenbach. The first--no, I haven't lived in an area 
like Las Vegas. I have lived in mostly smaller towns, except 
for here. You know, the rationale is that the Federal 
Government has responsibility to dispose of the public lands. 
And I think for us to allow--give somebody else that 
responsibility would be inconsistent with what our overall 
legislation provides for. I will admit to you it has worked 
very well, Santini-Burton. There have not been glitches, and I 
attribute that to the efforts of the local government people in 
the Las Vegas area, Clark County people, city of Las Vegas and 
so forth, and our people in the district have been able to work 
very well with each other over the years. That is my 
understanding. And because of that, there has been no problems 
with this provision of the bill.
    Mr. Ensign. And I think that we have outstanding people in 
the BLM currently. We are going to have them in the future. We 
are going to have outstanding people locally, and I would 
submit to you and I would implore the Administration to 
reconsider its position on this joint selection, that this will 
work just like it worked under Burton-Santini. So, you know, 
when we are negotiating over the next couple of weeks I would 
implore the Administration to rethink its position on this.
    Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I would like to delve 
just a little deeper into these issues of joint consultation 
versus--urban consultation versus joint selection. Under 
consultation, is the county or local government planning ever 
taken into consideration before the government, the Federal 
Government, decides on which property they are going to 
release?
    Mr. Millenbach. Yes, it is.
    Mr. Gibbons. Before you do that, or is it your decision to 
release this property and then you will talk to them?
    Mr. Millenbach. It is kind of a two-step process. The local 
governments, they have their land use plans. And when we do our 
general resource management planning, which identifies the 
broader area that would be disposed of, the requirement of law 
is that we consult with the local jurisdictions to make sure 
that our resource management plans are consistent with their 
plans.
    Mr. Gibbons. Now if county or local government disagreed 
under your consultation plan to release Federal lands, for 
example, because of their infrastructure needs, would they have 
the ability to say no to your process and your plans, change 
it?
    Mr. Millenbach. No, sir. The resource management planning 
is delegated down to the Secretary of the Interior, and he 
retains the authority to make the final decision.
    Mr. Gibbons. So only veto power under joint selection would 
allow county and local government participation in the decision 
for their planning purposes versus consultation?
    Mr. Millenbach. They would still have the ability to 
consult and be consulted.
    Mr. Gibbons. Would they still have the veto power under 
consultation?
    Mr. Millenbach. No, sir.
    Mr. Gibbons. Thank you.
    Mr. Ensign. Ms. Christian-Green.
    Ms. Christian-Green. Thank you, Mr. Chairman. I have a 
question primarily for my information. There is an issue over 
the noise, airport noise abatement area.
    Mr. Millenbach. Yes, ma'am.
    Ms. Christian-Green. And in your testimony you refer to a 
memorandum of agreement. In that memorandum of agreement, was 
the 4600 acres agreed to as what was needed by the State of 
Nevada for airport noise abatement?
    Mr. Millenbach. Yes, ma'am. That is my understanding. There 
is an existing memorandum of agreement whereby we have agreed 
not to dispose of public lands that are within this defined 
area on the map. What this bill would do would transfer the 
lands within that boundary to the airport authority.
    Ms. Christian-Green. And I just want to reecho the 
sentiments of our Chairman and other colleagues on the issue of 
joint selection. As a delegate from one of the territories, 
that is an issue that we understand. And I want to support the 
Chairman's remarks on that.
    Mr. Ensign. Any other members wish to inquire? Mr. Vento.
    Mr. Vento. Thank you, Mr. Chairman. The normal course of 
events for Burton-Santini has a dedicated purpose for the fund 
to buy forest land. So this obviously opens it up, the 85 
percent at least, to multiple purposes. Now those purposes are 
all in the State of Nevada. And the issue here, of course, is 
that the sale of State lands is usually going back to the 
treasury, is that correct?
    Mr. Millenbach. Yes, sir. All but four percent.
    Mr. Vento. All but four percent, which is kept for----
    Mr. Millenbach. Well, I believe it goes back to local 
government.
    Mr. Vento. I didn't quite hear your answer.
    Mr. Millenbach. It goes back to local government.
    Mr. Vento. It goes back to local government, so there is a 
small distribution here for administrative or other procedures. 
But in a land State like Nevada, because of the unusual public 
ownership with the deeds, you are actually taking the funds 
here on a non-appropriated basis and putting them back into a 
special fund for Nevada. Do you have any funds like that in 
other States that are similar to this other than the Burton-
Santini example, which we know is for a designated purpose?
    Mr. Millenbach. Not that I can think of right now. I would 
have to follow up on that. I don't believe we do.
    Mr. Vento. Well, I think it is useful. I think it is an 
interesting concept and one that has worked for this particular 
purpose. I think that as you look at public land States, though 
this may be an answer in terms of trying to deal with and 
enhance some of the public lands, like it is your intention by 
repairing areas of Nevada. Many of the BLM lands do not have, 
as an example, the wetlands associated pieces of the ecosystem, 
is that right, Mr. Millenbach?
    Mr. Millenbach. Yes, sir. We think that there is a big 
advantage to this idea of establishment of a fund. What it does 
is allows us to buy these environmentally sensitive lands near 
the recreational areas such as the Spring Hill Recreation Area 
near Las Vegas, repair areas near Clark--in Clark County and 
other areas throughout the State. It simplifies our process. 
And I think it will really make it a lot more efficient. The 
objectives of the bill that the Chairman stated this morning 
are very well taken, and we agree with them within the 
Department. Our difficulty has more to do with some of the 
details of the bill. And of course in the past it has been--we 
have not been able to get OMB agreement to set up a special 
fund, so we have been working very hard with the Office of 
Management and Budget to get an exception to the Budget 
Enforcement Act that would allow us to set up this fund and 
then----
    Mr. Vento. Which we have with Burton-Santini?
    Mr. Millenbach. That is correct.
    Mr. Vento. Well, I expect that that is going to be a 
problem, at least with the appropriation issue.
    Mr. Millenbach. Well, we are making pretty good progress 
with OMB.
    Mr. Vento. Well, I would be very interested to follow on. 
And obviously the purpose--I guess we would all like to review 
those purposes. This sort of represents the particular 
interests of Nevada. I don't think it is too bad. I think that 
it is within reason.
    The joint selection issue is an interesting process. But I 
think that in cases where there is disagreement, one ought to 
have an opportunity, in my view, just for the benefit of the 
members, to go to resolve this in terms of being able to come 
up with a decision. You need to work with the local governments 
and the Clark County government in terms of where they are 
going to put in a water service, where they are going to have 
development. And so I understand that it is appropriate.
    This gets back to this other question I had. And that is 
when I visited the area some years ago, as you recall--I don't 
know if you were along on that visit or not or who it was from 
BLM, but as I recall, there was, of course, a lot of this very 
desirable land. But there were also some small tracts of land. 
How does this deal with that particular problem? You have the 
mixed ownership of this land that is isolated. I just might 
comment to my colleagues that never have visited the site very 
often, these sites have things dumped on them. They are public. 
They are not surveyed. There are all sorts of problems with 
them.
    Mr. Ensign, we haven't talked about it, Mr. Chairman at 
some point I would like to, because these small tracts are our 
responsibility. These small tracts of land that don't have 
water. They are generally surrounded by private land. I don't 
know what the actual situation would be. From a practical 
standpoint, it represents a problem.
    Mr. Millenbach. Well, I think to the extent that this bill 
allows us to sell these smaller tracts of property, I think, is 
very advantageous.
    Mr. Vento. Are you barred from doing that? You are not 
barred from selling it right now, are you?
    Mr. Millenbach. That is correct. We could sell any of it 
under our existing authority. We could exchange it under our 
existing authority. I think one of the problems with exchanging 
these smaller tracts, though, it is much more difficult for us 
to put together an exchange package that would be of interest 
to a subdivision developer or something like that with those 
small properties.
    Mr. Vento. Well I have a simple mind and I would like to 
see certain blocks of land cleared and clear up responsibility. 
I am sure you would, as well, because having responsibility for 
land and then having it turn into a sort of temporary dump--
someone throws trash on it or whatever happens to it. It 
represents a serious problem with regards to where we are 
going. So I would try to look and see if there is some solution 
here that would facilitate the consolidation of these lands in 
that area and then deal with that. I know the survey costs 
greater than the value of some of this land because it doesn't 
have water and so forth associated. I am correct in that, am I 
not, Mr. Millenbach?
    Mr. Millenbach. Yes, sir, it is--they are not very 
convenient for us to have to administer. And again, I think 
this bill would be very helpful in dealing with that, because 
it would allow us to sell off a small piece of property, put 
the proceeds into----
    Mr. Vento. Well, there is an incentive here. That is true, 
it seems to me that the easier things to sell are those that 
have immediate economic value. The value of some of these 
tracts might not be as significant.
    Mr. Ensign. Mr. Vento, if I----
    Mr. Vento. I would be happy to yield.
    Mr. Ensign. Just to address that problem, actually, almost 
every piece of land in Las Vegas Valley right now has value. If 
you are in the Las Vegas Valley, you understand. I don't care 
if it is a two-acre piece of property or a one-acre piece of 
property or whatever, if it is in the Las Vegas Valley right 
now, there is access or there will be access and within the 
boundaries on the map that is over there. What we have tried to 
do with this is to--if somebody could display----
    Mr. Vento. No, I know. I have already seen it.
    Mr. Ensign. OK. If somebody could move the map into 
position over there. One of the things that we have tried to 
do, we are concerned about growing outside of a boundary. We 
wanted to establish kind of a boundary that this is what the 
Las Vegas Valley is going to be and it is not going to be 
outside this boundary. And so everything within that is 
developable, but outside it is not. So we are not going to be 
going out into these various areas. So even those small tracts 
of land within that, small developers, people that maybe want 
to build a home on it, you know, they like that piece of land. 
The biggest problem now--the reason it is dumped on, that land, 
is because it is publicly owned. And private people have a 
tendency to look out for their land a little more than public 
ones.
    Mr. Vento. Try to understand that there is some of the 
public land that is very desirable that has construction 
material and so forth dumped on it. Unfortunately it persists 
there. What I am talking about are small tracts and homesteads 
that are to the, if I remember, the west and south, Mr. 
Millenbach.
    And these sites don't have the water. They have wells but 
they don't have water rights. They don't have access. I think 
we have some maps that we had available a few years ago when I 
was there. And I would like to get into the small tracts issue 
and see what we can do. It is just that I would like to see it 
consolidated. I don't think they have quite the desirability 
because they are small tracts. Developers can't build the 
developments on them. And there are some practical problems 
with them, as I said. And, you know, it certainly may be that 
one of our goals--my time has expired.
    I wanted to ask a little bit about the Recreation and 
Public Purposes Act. I agree with you on the policy issue. One 
of the problems with the policy is the fact that it is 
innovative use. And I work with policy issues in Congress a 
lot. I like to see something, but it is the oversight problem. 
And the oversight problem deals generally with the Recreation 
and Public Purposes Act. And I am aware that there are some 
controversies over the nature of some of the public purposes, 
even in BLM lands in the Las Vegas Valley. Isn't that correct, 
Mr. Millenbach?
    Mr. Millenbach. Yes, sir.
    Mr. Vento. And so I think the issue is rather than take on 
these tasks, this is one that if you don't have now it's very 
difficult to dodge the requirement. So there may be a different 
way that this could be accomplished in terms of if this water 
policy was going to be in public ownership or other means, is 
that correct?
    Mr. Millenbach. Yes, the difficulty comes with the 
reversionary clause that is a part of those patents, and then 
the requirement that if the title changes or there is a change 
in use of the property, then the title reverts back to the 
Federal Government. So then we end up being stuck with, you 
know, somebody's house on a piece of property that has reverted 
back to us. Then what do we do from there? So----
    Mr. Vento. It is an impossible situation. Monitoring it and 
then the legal process that you have to go through to deal with 
enforcement, so that for all practical purposes this is not--I 
mean, I can understand the social goal that is desirable, but I 
think that how this is structured, I think, is--you may correct 
me.
    I was paying attention to the discussion with the Chairman 
with regards to the Little League Baseball. We are all in favor 
of Little League Baseball. I think the issue--the incidence of 
the environmental waivers that existed in the omnibus park 
bill, I would say was probably boilerplate language that dealt 
simply with the transfer of it, not necessarily with the 
ultimate use. And what you are dealing with here, I am sure 
that this bill will have in it NEPA waivers, other waivers that 
will facilitate the transfer. But I think what you are asking 
for here is an exception to the absolute end use of what you 
are going to do with it. I don't know if that is reasonable or 
not. We may have done some of that in the omnibus bill.
    Mr. Ensign. It is still subject to the Recreation and 
Public Purposes Act, the use.
    Mr. Vento. Oh, no, I understand the use issue, but I think 
that what you are seeking is waiver from the Endangered Species 
Act or a waiver from NEPA or a waiver of other things. If it is 
incident to the transfer, I don't know that there is an 
objection to that. Is that correct, Mr. Millenbach?
    Mr. Millenbach. The----
    Mr. Vento. In other words, it shouldn't have to go through 
NEPA if you are--in terms of this legislation for you to 
transfer some of this land under this law.
    Mr. Millenbach. The way the act is worded now is that it 
would exempt us from NEPA and the Endangered Species Act, and 
so forth.
    Mr. Vento. Well, this was a standard waiver. You know, that 
is a standard boilerplate waiver language--you are objecting to 
that. But, I think that this goes beyond that in terms of 
waivers for specific purpose.
    Mr. Millenbach. Yes, except that this is already designated 
by the BLM for disposal. This land is designated already for 
disposal.
    Mr. Vento. Yes, but, you would not, if you were going to 
put a factory on it, you wouldn't necessarily exempt that 
factory from every environmental requirement----
    Mr. Ensign. Right, but----
    Mr. Vento. [continuing]--that exists with regard to the 
Endangered Species Act.
    Mr. Ensign. If it is already designated for disposal and it 
is subject to the Recreation and Public Purposes Act, I think 
that you have addressed those problems.
    Mr. Vento. Well, the Recreation and Public Purposes Act I 
don't know that the----
    Mr. Ensign. You can't put a factory on that.
    Mr. Vento. No, you put the little league baseball on, but I 
don't know what their spikes might do to the desert tortoise. I 
mean, they well might be there. I know they are definitely 
where my brother is. But I think there is a difference. I don't 
know that, in this case that this is--I don't know what the 
owner's requirement would be--you have to obviously have a 
demonstration. If there is not a big problem, then they don't 
need the waiver from the Endangered Species Act and some of the 
other environmental laws. What you're saying is that you feel 
that under the Recreation and Public Purposes Act you have 
already gone through the environmental waiver process? They 
have satisfied those concerns, is that what you are saying?
    Mr. Ensign. What we are saying is we are trying to save 
some of the bureaucratic process, so we can get the fields 
built. You know, you can take four years to do the 
environmental----
    Mr. Vento. I think you have to demonstrate that. Maybe the 
additional witnesses today can fill us in on some of the 
details. Unfortunately we all have to leave, but I appreciate 
the Administration's work on this issue. And we will be paying 
close attention to this bill as it moves through. I tried to do 
so last time at the end of the session; I do have an interest 
in the area and it sounds like you are a long way down the road 
with regard to it. We look forward to working with you, 
especially on the small tracts issue that are quite essential. 
Thank you.
    Mr. Ensign. Thank you. Just before I dismiss you, Mat, let 
me just address one last thing. And that has to do with the 
objection to the money being used like at Lake Mead. You know, 
we have a backlog for the repairs and maintenance of Lake Mead 
this year of $203 million. Five wastewater treatment facilities 
violate county codes out there. And what is wrong with using 
some of this money to do that when the Administration really 
hasn't made it a top priority in the appropriations bills to do 
that? You know, we are just trying to come up with, here is a 
source of funds, maybe we can use it for this.
    Mr. Millenbach. The rationale is two items. One is that we 
believe that the money from the sale of public lands should be 
put back into the purchase of public lands, and that using them 
for the construction and maintenance of administrative 
facilities and that kind of thing is really not appropriate. In 
fact, we have just put out a policy within the Bureau to stop 
doing land exchanges for the very same thing. You might 
remember in the IG report of 1996 we were criticized for 
buying--exchanging for a bowling alley up in Elko or Tonopah, I 
guess. And so we don't believe as a general matter that we 
should be selling out public lands to do those kind of things.
    The other difficulty is that it gets to be hard to know 
when to stop doing that. At what point do you stop selling off 
public lands to buy capital improvements and do maintenance of 
existing facilities? So that is the rationale behind that.
    Mr. Ensign. I guess let me address that. And this has to do 
with the affordable housing thing, as well. And that is at what 
point--some of this is common sense. Some of this is case by 
case. In other words, if you can justify it, if it is for the 
overall public good--I think this gets back into when you 
addressed the affordable housing and Mr. Vento talked about 
that it is an admirable goal and all of that. Well, maybe it 
doesn't fit into our pretty box that we think the regulations 
should be and all of that, but government--and we are all in 
the government. We are to be working for the people. And we 
should be able to figure these things out. If we all agree on 
the goal, and we all do.
    If there is anybody who disagrees with the goal, maybe they 
need to reevaluate their thinking, but when you have these 
similar goals and it just happens to be that is not the normal 
way of doing things, we should be better stewards of our jobs 
and our responsibilities to the public to say yes, that may not 
be the normal way to do it, but let us figure out a way that we 
can guard against this being abused in the future and 
unintended consequences, but let us figure out a way to do it 
so that the public good is served by the government.
    That is what I would implore, in the next couple weeks when 
we negotiate on some of these issues is if you object to the 
ways that we have it written or maybe you see some unintended 
consequences down the road, let us try to come up with the same 
arguments--the same goals, maybe a little different way of 
getting around some of these things. Because the bottom line is 
that we are trying to make a system that is not working as well 
as it should, we are trying to make it work a little better 
than it is working currently.
    Mr. Millenbach. I agree. I think between our staffs over 
the last six months or a year we have made a lot of progress on 
this, and we are quite happy and willing to try to work these 
things out and get this bill moved forward. We would like to 
see this get enacted.
    Mr. Ensign. Thank you, Mr. Millenbach. Enjoyed having you 
with us in front of the committee.
    I would like to call the next panel of witnesses.
    Mr. Shadegg. Mr. Chairman.
    Mr. Ensign. Oh, I am sorry. Mr. Shadegg.
    Mr. Shadegg. I will be brief. Mr. Millenbach, first of all 
let me compliment the Chairman on the bill. I think it is 
appropriate and worth, perhaps, consideration for other 
locations. What I want to do is get a sense of timing. Maybe 
this has been brought up in testimony already. Perhaps you can 
already indicate--maybe you can answer the question for me, Mr. 
Millenbach, easily. What is your anticipation of when this 
legislation will be--assuming we can get it through fairly 
quickly, what point would you imagine implementing this process 
and to what portions--and we discussed when you were here last 
the ongoing transactions. Is it your anticipation that this 
would apply to any of those ongoing transactions or to those 
that have not been completed by the time this passes, or what 
do we do with the ongoing exchange?
    Mr. Millenbach. You are talking about the ones that we 
already have agreements on? Yes, we have got, I believe, five 
of those underway. We are proceeding to move forward with 
those. We would have to go back and take a look at the 
agreements themselves, but my understanding is that they--the 
agreements do envision a land exchange with those existing 
people that we have the agreements with. I will have to get 
back with you after I take a look at each one of those 
agreements to see exactly what they say. Are you concerned 
about the idea that all of a sudden we would stop doing the 
existing exchanges?
    Mr. Shadegg. As you recall, last time you were here we had 
an extended discussion about when you change the rules if you 
have a process that is bad that you think needs to be corrected 
but people have been following. At what point is it fair to 
change the rules of the game?
    And this may be a significant improvement in the process 
and it may be a beneficial way for assuring that the taxpayers 
are compensated and at the same time assuring that we have a 
process that gets land out of government ownership into other 
ownership and by the way, also doing some environmentally 
important goals.
    The question is at what point do you decide, OK, you have a 
new set of rules, I will apply the new set of rules. Can you do 
that to people that have already begun the game? Can you do 
that at half time, or do you play that game out and then start?
    Mr. Millenbach. That is a very good question. I--what we 
are going to have to do is take a look at those agreements, 
compare them with what we have got in bill and get back with 
you on that.
    Mr. Shadegg. When you say take a look at those agreements, 
do you mean as to whether or not they contemplate that they are 
completed agreements or whether or not they contemplate that 
these procedures might apply?
    Mr. Millenbach. Yes, how would the provisions of this act 
affect those agreements. I wouldn't want to--I can't give you a 
complete answer on that today, because----
    Mr. Shadegg. Could you look at that and get back to me?
    Mr. Millenbach. I sure can. Yes, sir.
    Mr. Shadegg. I appreciate it. Thank you, Mr. Chairman.
    Mr. Ensign. Thank you. I would like to thank you again, 
Mat. And I would like to call the next panel of witnesses, 
Lance Malone, newly elected Clark County Commissioner; Richard 
Wimmer, Deputy General Manager, Southern Nevada Water 
Authority; and Steve Hobbs, Nevada State Director, Nature 
Conservancy. Commissioner Malone.

      STATEMENT OF LANCE MALONE, CLARK COUNTY COMMISSIONER

    Mr. Malone. Mr. Chairman, thank you. Committee members, 
thank you for inviting me to testify in support of H.R. 449, 
the Southern Nevada Public Lands Management Act. I offer 
testimony today on behalf of the entire seven-member Board of 
County Commissioners from Clark County. In August of 1995, the 
Board of County Commissioners adopted a resolution calling upon 
Congress to introduce and enact the Southern Nevada Public 
Lands Management Act.
    This bill is a product of extensive community discussion 
among local government, Federal agencies and all affected 
stakeholders through numerous public lands task force meetings 
organized and conducted by the members of the Nevada 
Congressional delegation. On behalf of the Board of County 
Commissioners, I would like to thank the leadership of our 
entire delegation for their efforts to achieve a consensus 
solution to an issue that has been controversial and 
troublesome, the disposal of Federal lands in the Las Vegas 
Valley.
    There is a significant burden placed on local government of 
providing public services such as water, sewer, fire and police 
protection for the new neighborhoods, which have been built on 
vast tracts of Federal land opened up through BLM land 
exchanges. Dick Wimmer, from the Southern Nevada Water 
Authority, will discuss this further in his testimony.
    Right now the BLM has pending applications for over 20 land 
exchanges that could privatize approximately 53,000 acres of 
land in Las Vegas Valley. Six of these proposed exchanges 
remain a priority with the BLM and total over 10,000 acres of 
land.
    The County Commission believes that Federal land disposal 
policy should privatize land in accordance with local 
government's planning policies and zoning guidelines. This 
would ensure that growth would occur in areas of the valley 
where services are place and/or planned. We must avoid the 
leapfrog development which drives up the cost of local 
services.
    Clark County supports H.R. 449 for several reasons. We see 
three major benefits. We get to be more involved. Like the 
Santini-Burton Act, under this bill local government will have 
a say in the process of Federal land disposal. We get some of 
the financial benefit for water development and for our parks, 
recreation and open space. And third, the national treasures 
that are located here in Southern Nevada, such as Lake Mead, 
Red Rock and Mount Charleston, also get new facilities and 
financial help.
    Mr. Chairman, I want to respond to several of the suggested 
changes being proposed to the bill by the Department of the 
Interior. First let me point out that most of the provisions 
which BLM wants to fix are already law in the Santini-Burton 
Act and are currently applied within the geographic boundaries 
of the Santini-Burton disposable area. H.R. 449 essentially 
extends these provisions to apply to a larger disposal area 
covering most of the developable land within the Las Vegas 
Valley.
    Specifically the Interior Department testimony recommends 
eliminating requirement in H.R. 449 that BLM and local 
governments ``jointly select lands to be offered'' for 
disposal. The BLM apparently thinks it is just like a 
corporation or private homeowner and should be free to dispose 
of its property as it chooses only after consultation with 
local government. H.R. 449, however, requires that BLM land 
disposal activities be consistent with local land use planning 
and zoning requirements. These provisions were copied from the 
existing Santini-Burton law, which already apply in part of the 
valley. Why not make them apply throughout the entire valley?
    Our experience under the current land exchange process is 
that without joint selection it is the BLM which in effect 
determines how, when and where local land use planning 
decisions are made. No corporation or private owner is the 
single largest landowner in Las Vegas Valley and has the power 
to drive growth the way that BLM does.
    Mr. Chairman, the joint selection section is the heart of 
this legislation. It creates true Federal/local government 
partnerships by requiring both governments to work 
cooperatively to coordinate the needs, impact, size, scope and 
timing of BLM land sales and exchanges. When the Administration 
raised the same concerns last year, Clark County accepted a 
compromise which deleted a sentence copied from the Santini-
Burton Act which gives local government an explicit veto over 
any sale or exchange of BLM land. If BLM desires to get the 
joint selection of H.R. 449, I would respectfully disagree and 
request that you keep it as originally passed in the Santini-
Burton Act, including the local government veto language.
    The bill being considered today reflects an agreement 
reached last year between the airport and local BLM with 
respect to lands in the clear zone at the western end of 
McCarran Airport runways. These lands are part of an existing 
cooperative management agreement, or otherwise known as CMA, 
between the BLM and the airport, which gives the airport a veto 
over the disposable lands which aircraft noise exceeds 60 LDN. 
This bill moves a step further and transfers these lands to the 
airport for protection. Under the bill, the airport will manage 
the lands in conformity with the CMA agreement and the FAA 
regulations on land use capability--excuse me, compatibility.
    Because most of the land is located within the original 
boundaries of the Santini-Burton Act, the county agrees that if 
any development is allowed to occur on these lands, that it is 
compatible with airport noise, 85 percent of the proceeds will 
be given to the Federal Government for this acquisition of 
environmentally sensitive land in the Tahoe Basin pursuant to 
the original terms of the Santini-Burton Act.
    Finally, the Board of County Commissioners believes 
strongly that the 60 LDN level of noise protection upon the CMA 
boundary is based on the minimum level necessary to protect 
public health and safety. The 60 LDN protection level is based 
upon recommendations from the EPA, the Federal Interagency 
Committee on Noise, the National Resource Defense Council. Even 
the FAA's new policy guidance to local governments recommends 
we impose local land use planning protections at the 60 LDN 
level.
    The Nevada Public Lands Management Act is a growth 
management tool that makes sense for Clark County and the State 
of Nevada. It creates a true partnership between the Federal, 
State and local government and helps lessen the cost of the 
infrastructure impacts associated with land exchanges. 
Management of local parks and national resources like the Lake 
Mead National Recreation Area, the Red Rock Canyon National 
Conservation Area and the Toiyabe National Forest will also 
benefit. Whether you think about economics, conservation, 
growth management or just plain and simple fairness, the 
Southern Nevada Public Lands Management Act makes sense.
    [Statement of Lance Malone may be found at end of hearing.]
    Mr. Ensign. Thank you. Richard Wimmer.

 STATEMENT OF RICHARD WIMMER, DEPUTY GENERAL MANAGER, SOUTHERN 
                     NEVADA WATER AUTHORITY

    Mr. Wimmer. Thank you, Mr. Chairman and members of the 
committee. My name is Dick Wimmer. I am the Deputy General 
Manager of the Southern Nevada Water Authority. The Southern 
Nevada Water Authority is that regional entity that represents 
all of the water purveyors in Southern Nevada.
    As many of you probably have heard many times by now, we do 
have significant water challenges in Southern Nevada. Our 
challenges aren't so much, though, the amount of water we have, 
at least in the short run, but they are how we go about 
building and, probably more importantly, paying for the 
facilities to be able to deliver that water to the growing 
parts of the valley. This bill, H.R. 449, will provide us with 
important tools that will help us to be able to deal with some 
of these issues, some of the issues which have been created by 
the release of 17,000 acres to developers in remote areas of 
the valley that are outside the reaches of our existing 
infrastructure.
    The Southern Nevada Water System, which is the system that 
treats and delivers water to the Las Vegas Valley from the 
Colorado River, was constructed in the '60's and '70's. It is 
presently operating at absolute peak capacity during the summer 
and does not have additional capacity to serve our future 
needs. A very aggressive capital improvement program is 
presently underway, the first phase of which needs to be on 
line this summer to prevent shortages. And the total cost of 
this phased capital improvement program is over $1.7 billion. 
That is a fairly significant commitment for a community of just 
over a million people.
    One of the reasons that this cost is so high is because BLM 
land exchanges have opened land that leapfrogged existing 
development and created the need for infrastructure way outside 
the reaches of our system. This has caused us to have to build 
significantly more facilities than otherwise would have to have 
been built.
    To try to illustrate this, we had the Las Vegas Valley 
Water District do an analysis of four rapidly growing areas in 
land exchange areas on the outer reaches of the city and do a 
comparison assuming the same rate of growth as to what our 
infrastructure costs would have been had that growth occurred 
within the growing area of the community instead of 
leapfrogging out to the outer reaches. That analysis showed 
that the added costs of providing water service to these land 
exchanges, which was about 9700 acres, was $136 million. That 
is an average added cost of about $14,000 per acre for these 
exchanged lands.
    This clearly illustrates that the Southern Nevada water 
purveyors are victims of third party impacts associated with 
the BLM land exchange policies within the Las Vegas Valley. We 
have looked at whether to follow the examples of the Central 
Utah Project, the Central Arizona Project, or the California 
Central Valley Project and come to Congress and ask for 65 
percent Federal cost sharing, but we realize that there just 
isn't money available in Washington to do that today. We are 
therefore resolved to build the facilities without Federal 
assistance.
    We do believe, however, that we are justified in asking for 
some Federal assistance, because the Federal Government is the 
single largest landowner who will benefit from the increased 
land values resulting from the provision of water to these 
desert areas. We are seeking a partnership with BLM in future 
sales and exchanges.
    It has already been mentioned H.R. 449 borrows from both 
the Burton-Santini Act and the Apex Act by allowing local 
government to participate in the process of identifying lands 
to be disposed of and also in sharing in the increased land 
values brought by providing that infrastructure through the 85/
15 split of the proceeds from the sales of Federal lands. It 
would only partially reimburse us for the water infrastructure 
that is providing the value to these Federal lands when they 
are sold.
    H.R. 449 will reestablish a cooperative working partnership 
between the Federal Government and local government as we seek 
to provide water service to the growth which will occur in the 
next decade through the continued disposal of Federal land 
holdings within the Las Vegas Valley. We urge you to expedite 
the bill's enactment so the terms of this cooperative 
partnership can be immediately applied to the next block of 
Federal lands that are made--that are released for development.
    Thank you very much.
    [Statement of Richard Wimmer may be found at end of 
hearing.]
    Mr. Ensign. Thank you. Mr. Hobbs.

    STATEMENT OF STEVE HOBBS, NEVADA STATE DIRECTOR, NATURE 
                          CONSERVANCY

    Mr. Hobbs. Thank you, Mr. Chairman, members of the 
committee, for allowing me to come before you and talk about 
this bill. My name is Steve Hobbs. I have been the State 
Director for the Nature Conservancy in Nevada for three years 
now. As I am sure you know, the Nature Conservancy is an 
international, nonprofit organization whose mission is the 
conservation of plants, animals and natural communities that 
represent the diversity of life on Earth. To date, the Nature 
Conservancy and its more than 900,000 members have conserved 
more than ten million acres for future generations.
    While in Nevada, I have been involved in several 
transactions involving land exchanges in the Las Vegas Valley. 
I see both the opportunity and challenge of the current system. 
As you know, the Las Vegas economy is booming as never before. 
Nearly 5000 new residents per month come to Las Vegas to share 
in this prosperity. And the challenge to local and Federal 
Government is daunting. Our natural resources and the 
attractive environment that draws both new residents and 
tourists is in jeopardy.
    The Las Vegas Valley sits as an island in a sea of Federal 
land. To meet the demand for residential housing spurred by 
this phenomenal growth, developers must look to expand onto 
Federal lands that do not enhance the public land portfolio. 
The current Federal land exchange process has helped to 
facilitate this growth, but in a way that is largely 
unsatisfactory to all parties involved.
    A recent report from the President's Council of Economic 
Advisors recognized that matching the desires and financial 
expectations of both parties in a Federal land exchange is very 
difficult. The report states ``a land purchase fund that 
decouples buying and selling land assets is superior to direct 
swaps.'' The Nature Conservancy agrees. Besides solving the 
problem of finding lands that match in value, we believe that a 
system that sells government land at auction, keeps the 
receipts off-budget and then uses them to improve the public 
land portfolio has several advantages.
    Number one, by auctioning the land we use the power of the 
free market to decide the value of the public lands. Too often 
the science of objective land appraisals becomes the art of 
speculation, especially in as volatile a market as exists in 
Las Vegas. This leads to endless debate over the validity of 
various appraisals for the same parcel of land, often without 
clear resolution.
    Second, such a system would give much more flexibility to 
government agencies to acquire land and reduce the overall 
costs of acquisition. The current land exchange system is 
needlessly complicated and often takes more than a year, 
sometimes two, for a single transaction. This time lag leads to 
lost opportunities and increases the overall cost to taxpayers 
to acquire these lands.
    Third, a system of competitive bidding maximizes financial 
return to the government. It is quite likely that in an 
expanding real estate market such as Las Vegas the winning bid 
for land will exceed the assume fair market value that the 
Federal Government might derive through an appraisal.
    And last, an auction system would make the Federal land 
acquisition and disposal process more transparent to the 
American people.
    The Southern Nevada Public Land Management Act of 1997, 
H.R. 449, establishes a new land disposal system for Nevada 
that incorporates these ideas. Besides solving the problems of 
acquiring environmentally sensitive land through the exchange 
process, H.R. 449 provides funding for the nation's natural 
treasures in Southern Nevada that have become overrun by the 
burgeoning resident population and increased tourism.
    H.R. 449 is sensitive to the needs of rural Nevada, as 
well. H.R. 449 provides for compensation to local governments 
through the payment in lieu of taxes program. This program 
ensures that local property tax revenues remain stable when 
government purchases convert private lands into public 
ownership.
    H.R. 449 also requires that Federal agencies consult with 
local government before they acquire private lands to ensure 
that the proposed acquisition is compatible with the long-term 
goals of the local community. The Nature Conservancy feels very 
strongly that sustainable conservation is only possible when 
the social and economic needs of the local community are 
considered. And we wholeheartedly support this provision of 
H.R. 449.
    The natural treasures of Nevada are the nation's treasures. 
Our scientists in 25 years of extensive ecological surveys have 
determined that Nevada is the sixth most ecologically important 
State in the nation.
    H.R. 449 solves the myriad problems that exist with the 
current land exchange process while providing the funding 
necessary to ensure a lasting legacy of environmentally 
sensitive land. The Nature Conservancy fully supports H.R. 449.
    [Statement of Steve Hobbs may be found at end of hearing.]
    Mr. Ensign. Thank you, Mr. Hobbs. Let me ask a few 
questions of the panel. And we do have a vote on, so we are 
going to try to wrap the hearing up within the next, oh, 
probably seven or eight minutes, so we will try to be as brief 
as we possibly can. I want to ask--first of all, Dick, I would 
like to just address one quick question to you. You mentioned 
the $14,000 an acre. Could you also talk about some of the 
impacts on land as far as paying for water, for rights-of-way 
and things like that, the impact that that can have on 
basically local rate payers?
    Mr. Wimmer. Absolutely. At the present time we are in the 
position where we have to either buy private lands or we have 
to go through lengthy processes and pay for sites for 
reservoirs and other right-of-ways necessary for water 
facilities. That adds significantly to the cost to the public 
for those water facilities. And this would help in that 
tremendously.
    Mr. Ensign. OK, thank you. Mr. Hobbs, under the current 
process versus what you foresee under H.R. 449, do you foresee 
that groups like the Nature Conservancy would have more or less 
input into what lands are then purchased?
    Mr. Hobbs. Well, I think the benefit of H.R. 449 is that it 
provides more input from the entire environmental community, 
local governments, Federal Governments. I think it just makes 
the whole process more of a cooperative process than exists 
today.
    Mr. Ensign. OK, and, Lance, welcome, by the way.
    Mr. Malone. Thank you.
    Mr. Ensign. The comments--we had a discussion earlier about 
joint selection, and you mentioned that in your testimony. As a 
newly elected local commissioner, you have seen--one of the 
reasons you probably ran for office was--in our conversations 
was seeing some of the frustration out there at the local 
level. I guess I would just like you to discuss a little bit 
about that, how important and just kind of elaborate a little 
more of what the joint selection process--what that would mean 
to local government.
    Mr. Malone. Mr. Chairman, it is going to be imperative that 
Clark County Commissioners and the other municipalities that 
are surrounding the area have a say in what goes on when it 
comes to land exchanges. It has, of course, great importance to 
us when they are allowed to make the exchanges without--other 
than just consultation, without going with our use, our 
planning, our zoning decisions that are being made. We have 
what is called--and Mr. Hobbs eloquently stated it, 
leapfrogging effects, which is very costly, which the taxpayers 
have to pay. And that, of course, then increases the homes. And 
so it makes it a little bit more difficult for home buyers to 
come in and purchase a home because they will be financially 
impacted. So I can assure that the joint selection is really 
the heart of this legislation.
    Mr. Ensign. Thank you. Ms. Christian-Green.
    Ms. Christian-Green. Just wanted to thank you for your 
testimony. And as a freshman here in Congress and on this 
committee, I thought we would be looking at having continuing 
conflicts between developmental concerns and environmental 
concerns. And it is very encouraging to come here this morning 
and to see your representatives in Congress on both sides of 
the fence, developmental interests and conservation interests 
coming together and working out an agreement on an issue of 
importance to the State.
    Mr. Ensign. Thank you, Ms. Christian-Green. We in Nevada 
like to think that we are a little bold in our thinking that 
the--maybe we are a little also arrogant in that we think that 
the rest of the country can learn a lot from our State. But let 
me just conclude. Maybe each of you could make a brief 
statement on this from your perspective of identifying just the 
number one reason you think H.R. 449 should be--as brief, 30 
seconds or less--why you think H.R. 449 should be moved forward 
as quickly as possible. We will start with you, Mr. Hobbs.
    Mr. Hobbs. Thank you. I think that this really is the 
legacy for the State of Nevada. And I see this as a model for 
what can happen in other States. I think we have a unique 
situation in the State of Nevada. I think we can capitalize on 
that. This is a unique opportunity for us and we need to act 
now in order to really realize a dream for conservation and for 
the entire State.
    Mr. Malone. I think mostly the western parts of the United 
States is owned by the BLM, which is of course great concern to 
local government entities, being able to have a say. We have 
several environmentally sensitive areas such as Nellis Air 
Force Base, that is contiguous with private ownership, and 
their live munitions area. And we are trying to, of course, 
work out with our State senators and with our delegation in 
land exchanges to those extent. But when it comes to land 
sensitivity, we have a lot of wonderful areas in the Las Vegas, 
Nevada, in general that needs to be conserved. And I think the 
only way we can do that is by pushing for H.R. 449.
    Mr. Wimmer. It defines the outer boundaries of the disposed 
area of land so that we know what the size of the municipal 
area will be in terms of private landownership. This lets us 
plan for infrastructure and for other things. It also 
contributes a little bit back in terms of the costs that we are 
incurring that is actually creating the value in the Federal 
lands when they do sell.
    Mr. Ensign. Well, I would like to thank the panel and 
everyone, our senators and Mr. Millenbach, for your testimony 
today, and especially for those from Nevada that you traveled 
out here. I appreciate your work. Just a final note. Lance, we 
will be meeting up in my office--my staff will be taking you up 
there--after I vote. This Subcommittee is adjourned.
    [Whereupon, at 11:28 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

Statement of Mat Millenbach, Deputy Director, Bureau of Land Management

    Thank you for the opportunity to testify on H.R. 449, the 
Southern Nevada Public Land Management Act of 1997, regarding 
land disposal in the Las Vegas Valley. The Bureau of Land 
Management (BLM) supports the concept behind this bill. We 
believe that through continuing discussions with the bill's 
authors in the House and the Senate, a final bill can be 
produced that would receive the Administration's endorsement.
    Let me provide some background and context for this 
legislation. In many parts of the West, the legacy of 
settlement has left us with a scattered ownership pattern. The 
Las Vegas area is a good example. As communities such as Las 
Vegas expand, the BLM works with local jurisdictions to make 
public lands available through sale or exchange and also 
provide lands for public purposes through Recreation and Public 
Purpose (R&PP) Act patents and leases. In the Las Vegas Valley, 
BLM is working with all jurisdictions and private interests to 
facilitate the disposal of public lands, mostly through 
exchange. Our program of land exchanges in the Las Vegas Valley 
is designed to dispose of land with high commercial value, 
which allows us to acquire resources significant to all 
Americans, including:
    <bullet>prime recreation areas;
    <bullet>riparian and wetland habitat;
    <bullet>critical habitat for threatened, sensitive and 
endangered species, and
    <bullet>significant historical, archaeological, and 
cultural sites.
    H.R. 449 and its companion Senate bill, S. 94, specifically 
affect several thousand acres of public land in the Las Vegas 
Valley, which are managed by the BLM. In recent years, the Las 
Vegas Valley has become the fastest growing metropolitan region 
in the country, but development has been influenced by the 
presence of public lands in the area. The rapid expansion has 
also had an impact on the Las Vegas District of BLM, which has 
experienced an increase in applications for permits to use 
public lands. These requests have included rights-of-way for 
power lines and roads, R&PP leases for fire stations and 
schools, land exchange proposals, and other realty actions. 
This bill seeks to resolve the future of these public lands by 
requiring BLM to sell, exchange or transfer public land in the 
Las Vegas Valley.
    Mr. Chairman, the BLM strongly believes that the land 
ownership pattern in the Las Vegas area needs to be addressed. 
In fact, our draft Resource Management Plan (RMP) for the area 
targets the vast majority of BLM-managed lands within the Las 
Vegas metropolitan area for disposal in order to meet the 
growth needs of the community. The lands specified in H.R. 449 
are nearly identical to those identified for disposal in the 
RMP.
    As part of it's planning process, BLM's Las Vegas District 
works toward partnerships with local governments in southern 
Nevada. The BLM is a charter member of the Southern Nevada 
Public Lands Task Force, and BLM personnel meet regularly with 
the Clark County Planning Director at quarterly meetings. In 
January 1996, BLM initiated the Southern Nevada Land Exchange 
Strategy Project to improve the effectiveness of the land 
exchange program and other realty actions in the Las Vegas 
District. Coordination and communication with local governments 
continue to be key to success of the project. In the area of 
land exchanges, our goal is to prioritize land exchange 
opportunities and move forward with timely completion of high 
priority land exchanges that meet the public interest and 
respond to local needs.
    One of the best examples of sound legislation that 
addressed public land disposal is the Santini-Burton Act of 
1980. The law gave the Department of the Interior the authority 
to sell land in the Las Vegas Valley and to use 85% of the 
revenue to purchase National Forest System Lands in the Lake 
Tahoe Basin. The Federal government shares a reasonable portion 
of the receipts (15%) with Clark County, the City of Las Vegas 
and the State of Nevada. In return, lands in the magnificent 
Lake Tahoe Basin have been protected and made available for the 
enjoyment of the public.
    The intent of H.R. 449 is to capture the best qualities of 
the BLM's land exchange goals, the Burton-Santini Act and the 
partnerships that have been developed with local government. 
This bill provides for the disposal, by sale or exchange, of 
certain Federally-owned, BLM-managed lands within a limited 
area of the Las Vegas valley. Fifteen percent of the proceeds 
from these land disposals would be distributed to local 
entities. The balance of the funds would be used, for the 
benefit of natural resource management within Nevada for 
Federal land acquisition, capital improvements, development of 
a multi-species habitat conservation plan in Clark County and 
the development of recreation and natural areas within Clark 
County. The bill also provides for the transfer of lands to 
Clark County, at no cost, within the airport management area 
for McCarran International Airport. Should those lands be sold 
or leased, the United States would be paid 85% of the fair 
market value received. The bill also includes a provision 
allowing local governmental entities to select public lands 
needed under the R&PP Act prior to their conveyance. Local and 
regional governmental entities may also apply for rights of way 
for flood control and water treatment purposes which can be 
granted in perpetuity and at no cost. Additionally, the 
Secretary is authorized to transfer the R&PP reversionary 
clause from one parcel of land to another upon request by the 
owner of those lands.
    Under existing BEA rules, this bill would have significant 
PAYGO costs. However, the Administration is planning to propose 
changes to the current rule that prohibits scoring asset sale 
proceeds as PAYGO savings. Such a change would mean that the 
lands sale proceeds could be counted as offsetting the land 
acquisition and other costs in this bill. We will continue to 
work with OMB and the sponsors of the bill to resolve these 
issues.
    Nearly a year ago, the BLM acting Director, Mike Dombeck 
testified in opposition to an earlier version of this bill. At 
that time, Mr. Dombeck stated, ``while we support the goal of 
disposing of certain public lands within Las Vegas to 
accommodate the city's growth, the Department strongly opposes 
this bill.'' He pointed out that the earlier bill would divert 
huge amounts of Federal resources and funds to local interests, 
offering a windfall to a few at the expense of many. Since that 
hearing a year ago the Nevada delegation staffs have worked to 
resolve many of the problems we identified with the bill, as 
originally introduced in the 104th Congress.
    Since H.R. 449 was introduced in the House (and its 
companion bill S. 94), a number of technical issues have been 
discussed and resolved between BLM and Congressional staffs. 
Those details are unnecessary to pursue here. However, there 
remain a few issues that are as yet unresolved that need to be 
remedied before the administration can endorse the bill.
    First, section 4(a) waives FLPMA sections 202 and 203 for 
land disposals and section (b)(3) waives environmental laws for 
construction of a youth activity facility. The Administration 
opposes waivers of environmental laws in legislation. Such 
waivers undercut the applicability of the laws, undermine 
enforcement, possibly lead to serious environmental problems 
and set a dangerous precedent. We urge that these waivers be 
removed from the bill.
    Second, section 4(f) of the bill establishes a special 
account for 85% of the proceeds of land sales. Creating a 
special account that makes funds available without further 
appropriation is a significant departure from Administration 
policy. However, the Administration could support the 
establishment of such a fund if its uses were limited to land 
acquisition within Nevada and reimbursement of costs incurred 
by the local BLM offices in arranging sales or exchanges.
    Third, Section 4(d) of the bill is entitled, ``Joint 
Selection Required''. This section appears to require the 
Secretary to obtain local government concurrence before any 
land disposal action. The Secretary, just like a corporation or 
a private homeowner, should have the discretion to dispose of 
lands without having to wait for the local government to 
approve that transaction. After all, local government has the 
ultimate control of land development through planning and 
zoning. We believe strongly in consultation with local 
governments, but do not believe they should have veto power. We 
request that the term joint selection be changed to 
``consultation''.
    Fourth, Section 4(g) of the bill transfers 4,600 acres that 
are located within the Las Vegas Airport noise area to Clark 
County, at no cost. Specifically, the bill requires the 
Secretary of the Interior to transfer lands that are identified 
in a current Memorandum of Agreement (MOA) with the BLM to 
Clark County, at their request and at no cost. If the lands are 
later sold or leased, then the Airport Authority is required to 
pay the Federal government 85% of the value received. Although 
this approach is superior to the straight donation as designed 
in earlier versions of the bill, it still requires modification 
to assure that we are not conveying more lands than necessary 
for the airport's needs. I am sure the airport authority would 
like to keep this process as simple as possible without 
creating unnecessary long-term actions. Some additional 
modifications would also be necessary to insure that any 
conveyance (for example land exchanges) or use authorization 
upon the lands results in a sharing of receipts as intended in 
this section. We would be glad to work with the subcommittee 
staff and the airport authority on this issue.
    Finally, the bill contains a provision which allows 
affordable housing to be an acceptable use of the R&PP 
authority anywhere within Nevada. The R&PP Act authorizes the 
sale or lease of public lands for recreational or public 
purposes to State and local governments and to qualified 
nonprofit organizations. Examples of typical uses under the act 
are historic monument sites, campgrounds, schools, fire houses, 
hospitals, parks and fairgrounds. These lands are conveyed at 
costs below market value, with the exact price dependent upon 
the type of use or the restrictions placed on the lands. Most 
sales under the R&PP Act are made at $10 per acre or 50% of 
market value. The United States sells lands under this 
authority with a reversionary clause that requires the lands to 
remain in the ownership of the patentee and to be used for the 
purpose requested. Sales of these lands or changes of use 
result in a reversion of title to the United States known as a 
divestiture. Because of these requirements in the R&PP Act, 
this affordable housing provision causes potential problems 
should the property be conveyed or the use of the property 
change. The BLM could find itself in the position of having to 
divest title to hundreds of one-quarter acre tracts or a 
converted apartment house complex. We would suggest that this 
provision be removed. Taking back these types of properties is 
time consuming and offers no benefit to natural resource 
management in Nevada.
    Finally, we need to continue discussions regarding the need 
and location of any Red Rock NCA boundary modifications as 
called for in the legislation. The bill as written does not 
specifically delineate which areas are included--we would like 
to work with staff to insure that this boundary modification is 
in the best public interest.

    CONCLUSION

    Mr. Chairman, we all recognize that a population explosion 
is occurring in many western communities. Las Vegas is seeing 
an increased migration of people from southern California and 
large metropolitan areas in the east. Public lands can be part 
of the solution, and an effective land disposal program can 
assist in orderly growth. The Bureau of Land Management agrees 
that we need to move to dispose of much of the urban lands in 
the Las Vegas area when appropriate. Of the 130,000 acres 
within the area affected by this legislation, about 20,000 of 
those acres are public lands. These public lands should be 
disposed of in harmony with the needs of the local or tribal 
jurisdictions. We also believe that all land disposals must 
benefit both the American people and the local community as 
well.
    This legislation provides a framework to allow for a fair 
approach to dealing with the situation in the Las Vegas area. 
The bill deals with disposal of public land using a nearly 
identical boundary as developed within the BLM Draft Resource 
Management Plan. With changes to address the concerns outlined 
above as well as some possible changes of a more technical 
nature, the Administration could support the legislation. We 
would be happy to work with the Nevada delegation to provide 
such a solution.
    Mr. Chairman, I appreciate this opportunity to appear 
before the Subcommittee and discuss this bill. I will be glad 
to answer any questions.

                                ------                                0


                 Statement of Commissioner Lance Malone

    Introduction

    Thank you for inviting me to testify in support of H.R. 
449, The Southern Nevada Public Lands Management Act. I offer 
testimony today on behalf of the entire seven member Board of 
County Commissioners from Clark County. In August of 1995, the 
Board of County Commissioners adopted a resolution calling upon 
Congress to introduce and enact the Southern Nevada Public 
Lands Management Act.
    This bill is the product of extensive community discussion 
among local government, federal agencies and all affected 
stakeholders through numerous public lands task force meetings 
organized and conducted by the members of the Nevada 
Congressional delegation. On behalf of the Board of County 
Commissioners, I would like to thank the leadership of our 
entire delegation for their efforts to achieve consensus 
solution to an issue that has been controversial and 
troublesome, the disposal of federal lands in the Las Vegas 
valley.

    Infrastructure Costs and Local Government

    Right now, local governments and Nevada's legislature are 
struggling to determine how best to pay for new infrastructure 
for water, sewer, roads, schools, fire and police protection 
for the new neighborhoods which have been built on vast tracts 
of federal land opened up through BLM land exchanges which 
proceeded despite local government opposition to many of the 
exchanges.
    Right now, the BLM has pending applications for over 20 
land exchanges that could privatize another 53,000 acres of 
land in the Las Vegas Valley. Six of these proposed exchanges 
remain a priority with the BLM, and total over 10,000 acres of 
land. The County Commission believes that federal land disposal 
policy should privatize land in accordance with local 
governments' planning policies and zoning guidelines. This 
would ensure that growth would occur in areas of the valley 
where services are in place or planned. We must avoid the 
leapfrog development which drives up the cost of local 
services.

    Santini-Burton Act

    In 1980, Congress adopted the Santini-Burton Act which 
created a federal-state partnership to the disposal of federal 
land in Clark County. Under the Santini-Burton Act, local 
government nominated the federal land to be sold at auction and 
participated in sharing fifteen percent of the revenue. To 
date, only 2,696 acres of land have been privatized under 
Santini-Burton land sales. Compare this to over 22,000 acres 
which have been privatized through land exchanges just in the 
last few years. The problem with Santini-Burton is that it 
applies to only a small area within the valley. Federal land 
outside that area is disposed of through a land exchange 
process where local governments have not always been listened 
to. The land exchange process has contributed to urban 
development occurring on the fringes of the valley, far from 
existing services costing us more to provide roads, water 
service, sewer, schools, police and fire protection.

    Zoning Limitations

    While we local officials have to make decisions about 
zoning and land use, increasingly, a local government's 
authority to deny zoning for land uses is becoming limited by 
court decisions. Some would say to us ``just use your local 
authority to deny land use applications,'' however, the reality 
is that we often can't. Clark County does have community 
development zones which reflect where public infrastructure and 
services are available. The CD 1, 2, 3, etc. designations are 
used by the Board to approve or disapprove zoning applications. 
We cannot, however, succeed at our local efforts to manage 
growth without having a say in when, where, and how federal 
land within the valley is disposed of to private developers.
    When local governments build infrastructure systems, the 
value of federal land is increased. It's our local residents, 
through taxes and fees, that contribute significantly to the 
value of the federal land. Under the land exchange process it's 
the federal government that gets the benefits from that local 
investment.
    Clark County supports the proposed legislation for several 
reasons. We see three major benefits:
    1. We get to be more involved. Like the Santini-Burton Act, 
under this bill, local government will have a say in the 
process of federal land disposal.
    2. We get some of the financial benefit for our water 
development and for our parks, recreation and open space--the 
people who have made the investment that contributes to the 
value of federal land will be partially reimbursed for 
infrastructure costs.
    3. The federal agencies that serve our local community (and 
our tourist population that comes from all over the world) 
would get some financial help for improving and maintaining the 
national treasures that are located here in Southern Nevada 
such as Lake Mead, Red Rock and Mount Charleston, and are 
impacted by the growth brought about when federal land is made 
available for private development.

    Joint Selection

    Mr. Chairman, I want to respond to several of the suggested 
changes being proposed to the bill by the Department of the 
Interior. First, let me point out that most of the provisions 
which BLM wants to fix are already law in the Santini-Burton 
Act and currently apply within the geographic boundaries of the 
Santini-Burton disposal area. H.R. 449 essentially extends 
these provisions to apply to a larger disposal area covering 
most of developable land within the Las Vegas valley. 
Specifically, the Interior Department testimony recommends 
eliminating the requirement that BLM and local governments 
``jointly select lands to be offered'' for disposal. In 
addition, the BLM wants to eliminate provisions which require 
that BLM land disposal activities be ``consistent with local 
land use planning and zoning requirements''. Both these 
provisions are part of the existing Santini-Burton law.
    Mr. Chairman, the joint selection section is the heart of 
this legislation. It creates a true federal/local government 
partnership by requiring that both governments work 
cooperatively to coordinate the needs, impacts, size, scope and 
timing of BLM land sales and exchanges. When the Administration 
raised these same concerns last year, Clark County accepted a 
compromise which deleted a sentence copied from the Santini-
Burton Act which gives local government an explicit veto over 
any sale or exchange of BLM land. If BLM desires to gut the 
joint selection section of H.R. 449, I would respectfully 
disagree and request that you keep it as originally passed in 
Santini-Burton including the local government veto language.

    Protecting McCarran International Airport

    Mr. Chairman, the Administration's testimony recommends 
amending the section which transfers lands within the current 
The Clark County Department of Aviation (DOA)/BLM Cooperative 
Management Area which protects the clear zones at the end of 
McCarran International Airport's runways. Let me provide some 
background, the Clark County Department of Aviation, as the 
owner and operator of McCarran International Airport, has 
received more than 200 million dollars in federal grant 
assistance over the past ten years. Federal grant recipients 
are required to comply with grant assurances which specify 
airport policy on many issues. One of the most significant is 
maintaining compatible land use. The federal government does 
not want to provide financial assistance to an airport that 
does nothing to protect the public investment by enacting 
zoning and other preventive aircraft noise mitigation measures 
in high noise areas. If the airport or airport sponsor fails to 
maintain land use compatibility then the federal investment in 
the airport becomes worthless because aviation growth is often 
impeded nearby residents, who have moved close to the airport 
in places where there have been no land use controls. These new 
neighbors then vocally oppose airport expansion and advocate 
restrictions on aircraft takeoffs and landings.
    To make things even worse for airport proprietors, the 
Airport Noise and Capacity Act of 1990 took away an airport's 
right to enact any type of operational restriction on large 
aircraft. The only control an airport has left is to utilize 
land use control measures to try to maintain compatibility.

    History of McCarran Airport Land Use Compatibility Planning

    In 1988, as part of the Airport & Airway Improvement Act, 
Congress authorized a program for conducting noise 
compatibility studies. These studies are commonly referred to 
as Part 150 Studies. The Part 150 Study consists of two 
products: (1) Noise Exposure Maps depicting equal areas of 
noise exposure for specific levels of aircraft noise and (2) a 
document containing plans for how to abate and mitigate 
aircraft noise at the subject airport. These two products are 
then submitted to the FAA for approval and evaluation. The FAA 
goes through a meticulous evaluation process for every proposed 
noise abatement and noise mitigation measure. They do this 
because if they approve a measure, it must be (1) lawful; (2) 
feasible; and (3) it legitimizes the measure as a valid and 
effective noise abatement or mitigation measure and thus makes 
it eligible for federal funding.
    What is a compatible land use for an airport? According to 
the guidelines in Federal Aviation Regulation Part 150, the 
answer to this question is more easily expressed in terms of 
what is not a compatible land use. Essentially, non compatible 
uses include any residential land uses, schools, churches and 
hospitals. Most other land uses (commercial and industrial land 
uses) are compatible.
    A newly promulgated policy by the FAA has put much more 
pressure on airports to maintain compatibility. Under the 
former version of FAR Part 150, if an airport had conducted a 
Part 150 study they could be eligible to use federal funds on 
areas in the 65 ldn and greater for noise purchases, even if 
they did nothing to prevent incompatible development from going 
in. This is no longer the case. If an airport wants to receive 
funds from the federal government for land in noise impact 
areas, it needs to have adequate land use protections in place 
for existing land.

    The Inefficient Planning Past

    During the 1980's the BLM, which owns most of the land to 
the west of the airport's departure runways allowed for the 
disposal of several parcels of land within the noise impact 
area. There are repeated efforts to dispose of land in the area 
through land exchanges with developers who want to exchange 
environmentally sensitive lands in other parts of the Nevada 
and the country for land in the Las Vegas valley. This has 
resulted in a planning nightmare for local BLM officials, and 
it has also jeopardized Clark County's land use compatibility 
plans for McCarran Airport.

    Cooperative Management Area (CMA)

    In response to this problem, the Department of Aviation and 
the BLM negotiated the Cooperative Management Agreement in 
1991. Our two governmental entities were attempting to meet 
their respective mandates in a mutually beneficial, cooperative 
fashion. The Bureau of Land Management has the mandate of 
managing thousands of acres of land in southern Nevada and they 
do that with very limited resources. Clark County, as the owner 
and sponsor of McCarran International Airport, has the 
obligation of complying with a federal mandate which requires 
maintaining land use compatibility around the airport. Since a 
great deal of federal land underlies the primary departure 
flight tracks from McCarran Airport, and since most of the 
private land that is intermixed with the public land is 
undeveloped, the opportunity for some innovative compatible 
land use planning existed.
    In exchange for giving the airport the opportunity to 
review and comment on the proposed disposal of federal land in 
the Cooperative Management Agreement (CMA) area, the Department 
of Aviation agreed to provide continual property patrol and 
management services of the land in the CMA. Under this 
agreement the BLM is assisted in the management of the land and 
Clark County has the opportunity to review and approve of any 
proposed sales or transfer of federal land. This helps to 
ensure future development of the area will be compatible with 
the high levels of aircraft noise produced in the area.
    Clark County undertook a Part 150 study for MIA in June of 
1987 and an update of the study in June of 1991. As part of the 
1991 update, Clark County included the Cooperative Management 
Agreement with the BLM as a new preventive noise mitigation 
measure. The measure was subsequently approved by the FAA in 
March of 1994. Despite this agreement however there has still 
been incompatible development on the CMA through the release of 
federal lands. BLM says that it is simply unable legally to 
convey property with deed restrictions which will protect the 
airports noise impact area.

    H.R. 449

    The bill being considered today reflects a new agreement 
reached between the airport and the local BLM with respect to 
the CMA lands. The bill transfers the land to the airport. We 
will manage the lands in conformity with the CMA Agreement and 
the FAA regulations on land use compatibility. Because most of 
the land is located within the original boundaries of the 
Santini-Burton Act, the County agrees that if any development 
is allowed to occur on these lands that is compatible with 
airport noise, 85% of the proceeds will be given to the federal 
government for the acquisition of environmentally sensitive 
land in the Tahoe Basin pursuant to the original terms of the 
Santini-Burton Act.
    The BLM now proposes to amend the area being protected and 
transferred to cover only areas where there is a 65 ldn noise 
level (because this is the level at which federal money is 
provided to buy residences) rather than the 60 ldn level 
provided for in the agreement. Once again, I am astounded that 
the BLM is recommending this change.
    The federal government will receive 85% of the proceeds 
regardless of whether the 60 or 65 ldn level is used. 
Furthermore, Clark County will still exercise its rights under 
the existing Cooperative Management Agreement to prevent the 
BLM from disposing the land between the 60 and 65 ldn level 
because BLM cannot adequately insure airport compatibility. 
Finally, the BLM is simply wrong with respect to which noise 
level deserves protection. The Board of County Commissioners 
has selected a 60 ldn level of noise protection based upon 
information which is supported by recommendations from the 
Environmental Protection Agency, the Federal Interagency 
Committee on Noise, and the National Resources Defense Council. 
Even the FAA's new policy recommends land use planning 
protections at the 60 ldn level.

    Public Housing

    Lastly, I want to respond to the BLM's criticism of the 
section of H.R. 449 which allows local governments to acquire 
land for affordable housing projects under the provisions of 
the Recreation and Public Purposes Act. Every year Congress 
appropriates millions of dollars to the Department of Housing 
and Urban Development to assist local governments with 
affordable housing projects. The Clark County Public Housing 
Authority however is limited in its ability to acquire land for 
these projects because the federal land is largely unavailable 
and the private land is extremely expensive to purchase. I want 
to commend the Nevada delegation for recognizing the need to 
solve this problem.
    Affordable housing is a growing need in today's cities. The 
problem of homelessness must be attacked by all agencies of 
federal government in cooperation with local government. 
Affordable housing is just as legitimate a public purpose as 
local parks or fire stations to merit free federal land under 
the Recreation and Public Purposes Act.

    Conclusion

    The Nevada Public Lands Management Act is a growth 
management tool that makes sense for Clark County and the State 
of Nevada. It creates a true partnership between the federal, 
state and local gonads. Management of national resources like 
the Lake Mead National Recreation Area, the Red Rock Canyon 
National Conservation Area and the Toiyabe National Forest will 
benefit from the privatization of public land in Clark County. 
Whether you think about economics, conservation, growth 
management or just plain and simple fairness, the Southern 
Nevada Public Lands Management Act makes sense.

                                ------                                


 Statement of Richard Wimmer, Deputy General Manager, Southern Nevada 
                            Water Authority

    Introduction

    Chairman Hansen, Rep. Ensign and other members of the 
Committee, my name is Dick Wimmer and I am the Deputy General 
Manager of the Southern Nevada Water Authority (SNWA). The SNWA 
is that unit of local government which represents all water 
purveyors in southern Nevada.

    Growth and Water

    As many of you have probably heard, we have significant 
water challenges in southern Nevada. Our biggest water 
challenge is not the amount of water Nevada has but rather, it 
is how do we handle the infrastructure costs needed to deliver 
our water to the growing parts of the valley.
    This bill H.R. 449 will provide us with the tools necessary 
to cope with this significant growth which is resulting in part 
from the Interior Department land exchange policy which has 
released over 17,000 acres of land to developers in areas of 
the valley where our system has had no delivery capacity.

    Leapfrog Development Caused by Land Exchanges Creates Third 
Party Impacts

    The Southern Nevada Water System (SNWS) was constructed in 
the 1960's and 70's by the Bureau of Reclamation and was sized 
for a maximum delivery of water from Lake Mead of 380 million 
gallons per day. For the past two summers we have watched 
nervously as peak deliveries reached our system capacity. This 
summer will be the true test of our ability to manage the 
system so that everyone receives the water they need and 
expect. Recognizing this system problem, the SNWA agencies have 
embarked upon an accelerated plan to augment the treatment and 
delivery capacity of the existing system by 100 million gallons 
per day and to design and construct a new regional system to 
deliver future water supplies from Lake Mead. The total cost of 
this capital program will exceed $1.7 billion. $1.7 billion is 
a large commitment for a community of just over a million 
people.
    One reason the cost is so high is that as we sat down to 
design our new water system we found that we were forced to 
engineer a whole new system to supply water to those areas of 
the valley that were far beyond the boundaries of our existing 
system. Because the BLM land exchanges opened land that 
leapfrogged past existing development and infrastructure, they 
created demand we could not meet by simply running another 
extension of pipe or extending our existing system to provide 
water service to these areas. Rather than grow like other 
cities, from the inside out, adding incrementally to our 
existing system similar to the expanding ripples in a pond, we 
have been forced to design a new stand alone system that 
surrounds our existing infrastructure.
    To illustrate these added costs for you, the Las Vegas 
Valley Water District did an analysis of the facilities we have 
built and will build to the year 2000 which are needed to 
provide water to land exchange areas in the four major areas of 
growth in the western part of our system which could have been 
avoided if the land exchanges had not occurred.
    In our analysis we assumed the same rate of growth, however 
we located that growth in other areas of the system which had 
been previously approved for development and where capacity 
existed within the system. Our analysis showed that the added 
costs of providing water service to these land exchanges 
covering 9,700 acres was $136 million. This is an average added 
cost of $14,000 per acre for exchanged lands. The irony is that 
much of this land was originally appraised and exchanged for 
$10,000 or less per acre. Southern Nevada water purveyors are 
the victims of third party impacts associated with the BLM land 
exchange policies within the Las Vegas Valley.
    We have looked at whether we should follow the examples of 
the Central Utah Project, Central Arizona Project, and 
California's Central Valley Project and come to Congress and 
ask for 65 percent federal cost sharing to help us expand our 
water project. We have recognized however that there is no 
money to be found in Washington these days. We are therefore 
resolved to build the system without federal assistance.
    We believe however that we are justified in asking for some 
federal assistance because the federal government is the single 
largest landowner who will benefit from increased land values 
resulting from the provision of water to these desert tracts. 
What we are seeking is a partnership with BLM in future land 
sales or exchanges.

    Santini-Burton Act and the Apex Act

    In discussing our problems with our Congressional 
delegation, we proposed to expand upon two federal statutes 
governing the disposal of public lands in Clark County 
previously approved by this Committee. These statutes are the 
Santini-Burton Act and the Apex bill, already referred to by 
Commissioner Malone. This federal legislation created funding 
partnership between the federal government and Clark County in 
developing federal desert land at Apex. The Apex Project Nevada 
Land Transfer Authorization Act of 1989 (Public Law 101-67) 
recognized that BLM desert has no value if it cannot be 
developed. That statute created a real partnership with BLM 
which reimbursed the County for the value of the improvements 
which were made to the land. Under the terms of this Act, Clark 
County provided the infrastructure to develop the Industrial 
Park and negotiated the sale of land parcels to private 
industries desiring to locate at the Apex Industrial Park. Both 
BLM and the County have shared in the profits equally.
    H.R. 449 borrows from both the Santini-Burton Act and the 
Apex Act by allowing local government to participate in the 
process of identifying lands to be disposed of and also in 
sharing in the increased land values brought by providing 
infrastructure through a 85/15 split of the proceeds from the 
sales of federal lands. For the SNWA, this approach is 
critically important to defray the added costs of building a 
new water system to provide service to the expanded rings of 
BLM lands which surround the developed parts of Las Vegas. It 
will partially reimburse us for water infrastructure that is 
providing value to otherwise barren desert tracts of federal 
land.

    Conclusion

    H.R. 449 will reestablish a cooperative working partnership 
between the federal government and local government as we seek 
to provide water service to the growth which will occur in the 
next decade through the continued disposal of federal 
landholdings within the Las Vegas valley. We urge you to 
expedite the bill's enactment so that the terms of this 
cooperative partnership can be immediately applied to the next 
block of federal lands that are released for development. Thank 
You.

                                ------                                


Statement of Steve Hobbs, Nevada State Director, The Nature Conservancy

    The Nature Conservancy is a private, nonprofit corporation 
whose mission is the conservation of plants, animals and 
natural communities that represent the diversity of life on 
Earth. To date, the Conservancy, its nearly 900,000 members, 
and its like-minded partners have conserved more than ten 
million acres in 50 states and Canada. The Conservancy has 
helped conservation organizations in the Caribbean, Latin 
America, and the Pacific conserve millions of acres through 
innovative debt-for-nature exchanges and community-based 
solutions that enable sustainable economies. While some lands 
acquired by the Conservancy are sold to local, state, and 
federal government entities, the Conservancy owns 1,340 nature 
preserves--the largest private preserve system in the world.
    The Nature Conservancy was incorporated in 1951 and has 
sought to establish state chapters in each state. The Nature 
Conservancy of Nevada is the newest chapter in The Nature 
Conservancy having been established in 1995. However, the 
Conservancy has been very active in the past throughout Nevada 
from helping to acquire the largest oasis in the Mojave Desert 
at Ash Meadows to our effort to restore important wetlands 
while maintaining a strong agriculture-based economy in Fallon. 
We are currently working with Clark County officials, various 
federal agencies, and community leaders in crafting a Multiple 
Species Habitat Conservation Plan in an attempt to get ahead of 
the endangered species issues which confront this community. 
The Nature Conservancy is the largest conservation organization 
in Nevada with more than 4,200 members that provide financial 
support for our activities.
    Nevada is a state of contrasts. From the mosaic of high 
mountain ranges to the stark beauty of the deserts, Nevada 
contains some of the most diverse landscapes in the West. This 
diversity led The Nature Conservancy to rank Nevada as the 
sixth most ecologically important state with more than 320 
species being either rare or unique to Nevada.
    However, the wide-open spaces of Nevada are undergoing a 
rapid transformation. The growth that Nevada has experienced 
over the last five years is unprecedented. The vibrant economy 
of Nevada has attracted workers from all around the country.
    At a rate of 5,000 new residents per month, the Las Vegas 
Valley has exploded and maintaining the clear skies and 
beautiful surroundings that attract tourists, the basis of the 
Las Vegas economy, is challenged by this growth.
    The Las Vegas Valley exists as an island in a sea of 
federal land. To meet the demand for residential housing 
spurred by this phenomenal growth, developers must look to 
federal lands. The federal land exchange process has helped to 
facilitate this growth, but in a manner that is largely 
unsatisfactory to all parties involved.
    We need to explore alternatives to the current land 
exchange process. The Economic Report of the President, 
transmitted to the Congress last month, addresses this issue. 
The report includes the annual report of the President's 
Council of Economic Advisors (CEA). The CEA report includes the 
following statement (page 227):
    ``Achieving the most efficient mix of public land private 
lands may require reconfiguring the public land base, adding to 
it in some places and divesting in others . . . Reconfiguring 
could be accomplished directly through swaps of public for 
desired private lands, as is most common today, or public lands 
could be sold and the proceeds put into an account for land 
purchases elsewhere. Economists have long recognized that the 
swap option is limited by the ``double coincidence of wants'' 
problem. It is often hard to find a swap partner who both owns 
an asset the government wishes to acquire and places a similar 
value on an asset the government wishes to sell. For this 
reason, a land purchase fund that decouples buying and selling 
land assets is superior to direct swaps.''
    A system that sells lands at auction, keeps the receipts 
off-budget, and uses them to purchase other lands has major 
transactional advantages over traditional land exchanges, 
including:
    1. No need to match properties. In a traditional land 
exchange, a private party trades a land tract to the Secretary 
for a piece of land under the Secretary's control. The two 
tracts must be of almost equal value. Finding such a pair of 
matched tracts can be difficult and time consuming, 
particularly since the private party seeking a government tract 
rarely owns another the government wants. Most often, the 
private party has to seek out and purchase such a tract before 
the process begins. Turning government lands into cash first 
avoids the need to find equally matched tracts.
    2. Competitive bidding simplifies appraisals. Obtaining 
agreement from two parties on the appraised value of two pieces 
of property is probably the most difficult, time consuming, and 
frustration-inducing element of traditional land exchanges. 
Competitive bidding for the government property largely 
eliminates the need for one of the two appraisals. By 
definition, competitive bidding obtains a true market value for 
a property, and can greatly reduce the uncertainty, risks, 
controversy and delay that accompany having to set the value of 
a property through appraisal and negotiation.
    3. Competitive bidding maximizes return to the government. 
Selling the government lands at auction provides competition 
between buyers that will maximize the value received by the 
government for its land. True competition is often totally 
absent from traditional exchanges.
    4. The system accommodates sellers and reduces costs. 
Having cash on hand for acquisitions allows the Secretary to 
act quickly to take advantage of selling decisions by 
individual landowners. While negotiating an exchange is a 
complicated process that often takes more than a year, 
landowners' decisions to sell are often tied to an immediate 
need for cash. Being able to meet that need in a timely fashion 
greatly enhances the Secretary's ability to acquire lands in 
these circumstances--and can reduce interest and transaction 
costs the Secretary now reimburses to third parties for 
purchasing and holding lands the Secretary wants to acquire 
before funding is appropriated by the Congress.
    Land exchanges have long been scored as not affecting the 
federal budget in any way (except for transaction costs). But 
when government land is sold, the receipts become general 
receipts to the Treasury, and cannot be spent without further 
appropriation by the Congress--which puts them back into the 
budget process and its increasingly tightening limits.
    Having an off-budget fund fueled by land sales, and using 
that fund to buy land, is no different in its net fiscal impact 
than a land exchange. The final effect is no expenditure of 
appropriated funds, and no net change in the value of 
government assets--just a change in where those assets are 
located.
    The Southern Nevada Public Land Management Act of 1997 
(H.R. 449) addresses these issues in a way that does not impact 
the Federal Budget. This concept has been proven to work with 
the Santini-Burton Act through which more than 11,000 acres of 
important natural areas surrounding Lake Tahoe have been 
conserved.
    H.R. 449 also provides the federal agencies in Nevada the 
financial resources they need to accommodate the increased use 
of our public lands and safeguard those precious examples of 
our vanishing natural heritage. The explosive growth in 
Southern Nevada places a burden upon the management of our 
public lands. Not only has the hunger for land to develop 
caused pressure upon the Bureau of Land Management (BLM) to 
dispose of many of their lands through the cumbersome land 
exchange process, but this sudden increase in population has 
created difficulties for our federal agencies in maintaining 
the high quality recreational opportunities that can be found 
at nearby Lake Mead National Recreation Area, Spring Mountains 
National Recreation Area, and Red Rock Canyon National 
Conservation Area. The pressure on our irreplaceable natural 
resources in Southern Nevada, and elsewhere in the state, is 
beginning to show and unless steps are taken soon to provide 
the resources necessary to alleviate the problem.
    H.R. 449 would also make the exchange process more 
transparent to the American public than it is now. There is the 
general public perception, be it real or imagined, that the 
land exchange process is driven by powerful development 
interests rather than the federal and local government agencies 
charged with acting on the public's behalf. It is also the case 
that the federal agencies do not have the level of control over 
when and how offered lands are acquired making it difficult to 
make informed management decisions. H.R. 449 gives us an 
opportunity to amend this situation by giving the federal 
agencies the opportunity to be more deliberate and thoughtful 
in their land acquisition process to ensure that the public is 
truly benefiting from the transaction.
    H.R. 449 also provides for compensation to local 
governments through the Payment in Lieu of Taxes (PILT) Program 
administered by the Department of the Interior and the U.S. 
Forest Service. This program ensures that rural community's 
property tax revenues remain stable. H.R. 449 also requires 
that local governments be consulted before lands within their 
jurisdiction are purchased. In the state of Nevada, where more 
than 90% of the land base is owned by government, it is vitally 
important that our conservation acquisitions complement the 
goals of the local community while accomplishing the goals of 
conserving Nevada's unique natural heritage.
    To that end, The Nature Conservancy feels that it is very 
important that the Public Lands Task Force in Nevada move 
forward with the establishment of objective criteria for 
evaluating potential projects to be funded by monies generated 
through the passage of H.R. 449. These funds represent Nevada's 
conservation legacy for future generations. It is our 
responsibility to establish clear guidelines as to how this 
money will be spent to ensure that this unique opportunity to 
protect our environment in Nevada and ensure a lasting high 
quality of life for Nevadans not be wasted. The Nature 
Conservancy is eager to lend assistance in this effort relying 
upon more than 40 years of experience in aiding government 
agencies establish conservation strategies.
    The natural treasures of Nevada are the nation's treasures. 
We, as a nation, have a responsibility to future generations to 
pass on nature's legacy. The Southern Nevada Public Land 
Management Act of 1997 (H.R. 449) seeks to solve the myriad 
problems of traditional land exchanges thereby ensuring 
economic prosperity for the region while, at the same time, 
providing the financial resources necessary to ensure that this 
same economic prosperity does not result in the diminution of 
Nevada's natural environment. Prosperity is not truly 
prosperity unless it ensures a lasting quality of life for all. 
We have a unique opportunity in Nevada to provide for both 
economic growth and conservation of our natural resources. H.R. 
449 is the legislation that will enable us to seize this 
opportunity. The Nature Conservancy urges the passage of H.R. 
449.

                                ------                                

[GRAPHIC] [TIFF OMITTED] T0299.001

[GRAPHIC] [TIFF OMITTED] T0299.002

[GRAPHIC] [TIFF OMITTED] T0299.003

[GRAPHIC] [TIFF OMITTED] T0299.004

[GRAPHIC] [TIFF OMITTED] T0299.005

[GRAPHIC] [TIFF OMITTED] T0299.006

[GRAPHIC] [TIFF OMITTED] T0299.007

[GRAPHIC] [TIFF OMITTED] T0299.008

[GRAPHIC] [TIFF OMITTED] T0299.009

[GRAPHIC] [TIFF OMITTED] T0299.010

[GRAPHIC] [TIFF OMITTED] T0299.011

[GRAPHIC] [TIFF OMITTED] T0299.012

[GRAPHIC] [TIFF OMITTED] T0299.013

[GRAPHIC] [TIFF OMITTED] T0299.014

[GRAPHIC] [TIFF OMITTED] T0299.015

[GRAPHIC] [TIFF OMITTED] T0299.016

[GRAPHIC] [TIFF OMITTED] T0299.017

                                  <all>
</pre></body></html>
